APPENDIX COVER SHEET/INDEX

Appendix A'

Opinion; Crutchfield v Wainwright, 803 F.2d
1103 (11th Cir. 1986); (en banc), (plurality)

Appendix B

-Opinion; Skillem v United States; Denial of
Application for Certificate of Appealability,
Denial of 28 USC Section 2255 Motion

Appendix C

•Excerpt from Petitioner’s Trial Transcript

16

Case: 16-14253

Date Filed: 03/08/2018

Page: 1 of 16

[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 16-14253
D.C. Docket No. 8:14-cr-00058-MSS-TBM-2

UNITED STATES OF AMERICA,

Plaintiff - Appellee,
versus
JON CRAIG NELSON,
MICHAEL SKILLERN,
Defendants - Appellants.

Appeals from the United States District Court
for the Middle District of Florida
(March 8,2018)

/XPPOi&zx A

Case: 16-14253

Date Filed: 03/08/2018

Page: 2 of 16

Before MARCUS and NEWSOM, Circuit Judges, and MOORE,* District Judge.
NEWSOM, Circuit Judge:
Defendants Michael Skillem and Jon Craig Nelson appeal their convictions
for mail fraud, wire fraud, and associated conspiracies, all of which arose out of
their efforts to peddle non-existent gold to the public through their company, Own
Gold LLC. Although Skillem and Nelson have raised a number of issues on
appeal, our focus in this opinion is on Skillem’s contention that the district court
deprived him of his Sixth Amendment right to the “Assistance of Counsel” when,
just before an overnight recess that occurred while Skillem was on the stand, the
court granted his lawyer’s request to speak to him “about matters other than his
testimony.” Skillem now insists that the Constitution required the district court to
go farther and to specify that he could speak to his attorney about any topic,
including his testimony.
Because Skillem’s attorney proposed the very limitation of which he now
complains by asking to speak to Skillem “about matters other than his testimony,”
we are presented with several questions about the nature of and relationship among
the various “error” doctrines that pervade federal criminal law—trial error,
harmless error, structural error, plain error, and invited error. In the end, we
needn’t definitively resolve those questions, because Skillem’s Sixth Amendment
Honorable William T. Moore, United States District Judge for the Southern District of Georgia,
sitting by designation.
2

Case: 16-14253

Date Filed: 03/08/2018

Page: 3 of 16

argument fails for the separate and more basic reason that, in the circumstances of
this case, the district court committed no constitutional error. Under this Court’s
en banc decision in Crutchfield v. Wainwright, 803 F.2d 1103 (11th Cir. 1986),
because the record does not reflect that Skillem (or his lawyer) actually wanted or
planned to discuss his testimony during the recess, he was not deprived of his Sixth
Amendment right to the assistance of counsel.
I
In 2011, Skillem and Nelson started a company called Own Gold LLC for
the purpose of mining, processing, and selling gold. Own Gold’s website and
marketing materials represented that it was a “gold producer” with mining claims
worth some $81 billion. For the next two years Own Gold used a telemarketing
firm to execute contracts with hundreds of people who believed that they were
actually buying gold. Those contracts specified the amounts of gold purchased and
prices, and represented that customers could retrieve their gold ore “at any time
after the execution and payment of consideration” by “appealing] in person” at the
mining site. Otherwise, Own Gold had 360 days to deliver the gold; if it failed to
do so, it would refund the purchase price. All told, Own Gold accepted 441 orders
and collected more than $7.3 million from customers.
As it turns out, Own Gold’s representations about its gold production were,
well, misrepresentations. From its inception in 2011 until it stopped executing
3

Case: 16-14253

Date Filed: 03/08/2018

Page: 4 of 16

sales contracts with customers in 2014, Own Gold appears to have produced less
than six ounces of gold from its own mining operations. In light of its near-total
failure to produce any gold from its own mines, Own Gold resorted to trying to
fulfill customers’ orders by purchasing gold from third parties. Even so, despite
taking orders for 5,912 ounces of gold and accepting more than $7.3 million from
its 351 customers, Own Gold ultimately delivered a mere 150 ounces—valued at
$241,000—to 20 customers. Own Gold refunded only $35,022 to four customers;
none of the other orders was either fulfilled or refunded. Meanwhile, Skillem
collected approximately $488,000, Nelson bagged about $300,000, and Own
Gold’s telemarketing firm netted a whopping $5.1 million over a two-year period.
In February 2014, Skillem and Nelson were indicted for mail fraud, wire
fraud, conspiracy to commit mail and wire fraud, conspiracy to launder money, and
illegal money transactions in connection with their operation of Own Gold. As
particularly relevant here, Skillem testified in his own defense at trial, and his
testimony spanned three days. At the end of his first day on the stand, after the
jury was excused for the afternoon, his attorney asked the district court, “Your
Honor, may I speak to Mr. Skillem about matters other than his testimony this
evening?” The court granted the request, stating, “Yes, anything about the
proceeding and so forth, who’s coming, who is not coming, that’s fine, but just not

4

Case: 16-14253

Date Filed: 03/08/2018

Page: 5 of 16

his testimony or his impending testimony.” Skillem’s attorney responded, “Fine,
Your Honor.” Nothing more was said about the issue that day. i
The jury found both Skillem and Nelson guilty of four counts of mail fraud,
four counts of wire fraud, one count of conspiracy to commit mail fraud, and one
count of conspiracy to launder money. Skillem was sentenced to 120 months in
prison, and Nelson was sentenced to 96 months.
On appeal, Skillem principally asserts that the district court deprived him of
the assistance of counsel in violation of the Sixth Amendment. According to
Skillem, the court should have responded to his attorney’s request to speak to him
about “matters other than his testimony” by stating, sua sponte, that Skillem and
his attorney could discuss any subject—including his testimony—during the
overnight break. We now turn to a careful consideration of that issue.

n
The Sixth Amendment provides that “[i]n all criminal prosecutions, the
accused shall enjoy the right... to have the Assistance of Counsel for his defense.”
U.S. Const, amend. VI. The Supreme Court first considered the parameters of that
right in the context of trial recesses that occur during a criminal defendant’s
At the end of the second day of Skillem’s testimony, the district court noted that it had
“somewhat of a dilemma” because Skillem was still on the stand but might need to discuss
certain facts about another witness with his attorney. The court asked the parties whether they
objected to Skillem speaking with his attorney during the overnight break, and they indicated
that they did not. The court then instructed Skillem that he was “free to talk to [his] lawyer”
about anything that evening. That ruling is not at issue in this appeal.
5

Case: 16-14253

Date Filed: 03/08/2018

Page: 6 of 16

testimony in Geders v. United States, 425 U.S. 80 (1976). The Court held there
that a defendant’s Sixth Amendment rights were violated when he was precluded
from consulting with his attorney “about anything” during an overnight recess
between his direct- and cross-examination. Id. at 91. Similarly, in United States v.
Romano, this Court found a Sixth Amendment violation when a district court
allowed a defendant to speak with his lawyer about some topics, but not his
testimony, during a five-day recess in the middle of his testimony. 736 F.2d 1432,
1434-38 (11th Cir. 1984), vacated in part on other grounds, 755 F.2d 1401 (11th
Cir. 1985). More recently, though, the Supreme Court held in Perry v. Leeke that a
district court did not violate the Sixth Amendment when it directed a defendant not
to consult with his attorney during a 15-minute recess. 488 U.S. 272,280-85
(1989).
Where, then, does this case fall along the spectrum marked out by Geders,
Romano, and Perry? The limitation on lawyer-client communication here was
“worse,” so to speak, than in Perry, in which the Supreme Court found no Sixth
Amendment violation, in that its duration was longer: there, the recess lasted only
minutes; here, it spanned an entire night. In two respects, though, the limitation in
this case was not as bad as in Geders and Romano, both of which found violations:
the limitation here was more narrowly circumscribed than in Geders, in that
Skillem was permitted to talk to his lawyer about issues other than his testimony;
6

Case: 16-14253

Date Filed: 03/08/2018

Page: 7 of 16

and the limitation here persisted for only a fraction of the five days at issue in
Romano. So we’re somewhere in the middle: Does it violate the Sixth

i

Amendment to prevent a criminal defendant from discussing his testimony, but not
other topics, during a single overnight recess? Although no existing precedent
resolves that precise question, even the Government seems to concede that the
answer, at least as a general matter, is probably yes. See Br. of Appellee at 52
(“[T]he district court’s limitation here impermissibly constrained Skillem’s ability
I

to consult with his attorney during the first overnight recess.”).
But there’s a wrinkle here—it was Skillem’s attorney who actually proposed
the limitation that Skillem now challenges. He specifically asked the district court
for permission to speak to Skillem about “matters other than his testimony,” and
then, when the district court acceded to his request, he never expressed any regret,
objection, or desire to clarify. The parties, naturally, have very different views
about the consequences of the phrasing of Skillem’s lawyer’s request and his
subsequent failure to alter it or otherwise object. For his part, Skillem asserts that
a Geders violation is a “structural error”—for which “no objection is necessary”
and which requires automatic reversal, no questions asked. The government, at the
opposite pole, responds that the Court needn’t even consider Skillem’s Sixth
Amendment argument because his own lawyer “invited” any error. At the veiy
least, the government contends, we should review the issue only for “plain error”
7

Case: 16-14253

Date Filed: 03/08/2018

Page: 8 of 16

because neither Skillem nor his attorney lodged an objection to the limitation.
Though the parties’ competing arguments raise a number of important and
unsettled questions about the relationship between the various “error” doctrines,
we needn’t answer them today. As explained below, because the trial record
doesn’t indicate that either Skillem or his lawyer had any intention or desire to
discuss his testimony during the recess, Skillem can’t show that he was actually
deprived of his right to counsel, as required by our en banc decision in Crutchfield.
A
First, a brief word about Skillem’s assertion that a Geders-Xike violation of
the sort alleged here is a “structural error.” If it is, then it “defjies] analysis by
harmless error standards.” United States v. Gonzalez-Lopez, 548 U.S. 140,148
(2006). Structural errors are those (comparatively few) that “affect the framework
within which the trial proceeds, rather than being simply an error in the trial
process itself.” Weaver v. Massachusetts, 137 S. Ct. 1899,1907 (2017) (internal
quotation marks omitted). Most errors don’t fall into the narrow structural-error
category and are instead deemed “trial errors”; they don’t require reversal if the
government “can show beyond a reasonable doubt that the error complained of did
not contribute to the verdict obtained.” Id. (internal quotation marks omitted).
So is Skillem right that a Geders-type Sixth Amendment violation is
necessarily a structural error? Tough to say. When in Geders itself the Supreme
8

Case: 16-14253

Date Filed: 03/08/2018

Page: 9 of 16

Court held that a district court had violated the Sixth Amendment by flatly
precluding a defendant from consulting with his lawyer (about any topic) during an
overnight recess, and reversed on that basis, it did so without invoking the
structural-error doctrine—but also, conspicuously, without pausing to examine
whether or not the error might have been harmless. 425 U.S. at 91. So too, when a
few years later the former Fifth Circuit reversed a conviction on the ground that the
district court had violated a defendant’s Sixth Amendment rights by preventing
him from consulting with his attorney (again, at all) during a brief recess, it did so
without calling the error structural—but again, without bothering to assess
harmlessness. See United States v. Conway, 632 F.2d 641, 645 (5th Cir. 1980).2
In the same way, when we held more recently that a district court violated a
defendant’s Sixth Amendment right to counsel by preventing him from conferring
with his attorney during two overnight recesses, we did so without mentioning
structural error, but also without considering harmlessness. See United States v.
Cavallo, 790 F.3d 1202,1213-18 (11th Cir. 2015).
The plurality opinion in Crutchfield arguably inched closest to actually
addressing the structural-error issue when it said that “any deprivation of assistance

2 In Bonner v. City ofPrichard, 661 F.2d 1206,1209 (11th Circ. 1981) (en banc), we adopted as
binding precedent all decisions of the former Fifth Circuit handed down before October 1,1981.
We also note that the part of Conway holding that it is a Sixth Amendment violation to restrict
communications during a brief recess is no longer good law in light of the Supreme Court’s later
decision in Perry v. Leeke, 488 U.S. 272 (1989).
9

Case: 16-14253

Date Filed: 03/08/2018

Page: 10 of 16

of counsel constitutes reversible error and necessitates a new trial” and then went
on to state that “[o]ur rule does not include a harmless error analysis.” 803 F.2d at
1108. That, it seems to us, is pretty close to a recognition that a Geders violation,
if proven, constitutes a structural error that is not susceptible to harmless-error
analysis. The Crutchfield plurality’s opinion doesn’t bind us, of course, but we do
note that its resolution of the issue comports with the decisions of other circuits.
See, e.g., United States v. Triumph Capital Grp., Inc., 487 F.3d 124,131 (2d Cir.
2007) (“[I]n the Geders context, a violation of a defendant’s Sixth Amendment
right to counsel... constitutes a structural defect which defies harmless error
analysis ....”) (internal quotation marks omitted); United States v. Santos, 201 F.3d
953,966 (7th Cir. 2000) (same); United States v. McLaughlin, 164 F.3d 1, 4 (D.C.
Cir. 1998) (same).
But that doesn’t conclude the inquiry, because even if a Geders violation is
proven, and even if such a violation is a structural error, the question remains:
What happens if a structural error occurs, but, as happened here, no one complains
about it? In the case of non-structural trial errors, the “plain error” rule severely
restricts appellate review of unchallenged trial-court rulings. See, e.g., United
States v. Dudley, 463 F.3d 1221,1227 (11th Cir. 2006). Under the plain-error
standard, we have “discretion to correct an error” in a criminal trial, even absent a
proper objection, “where (1) an error occurred, (2) the error was plain, (3) the error
10

Case: 16-14253

Date Filed: 03/08/2018

Page: 11 of 16

affected substantial rights, and (4) the error seriously affects the fairness, integrity
or public reputation ofjudicial proceedings.” United States v. Duncan, 400 F.3d
1297,1301 (11th Cir. 2005). Whether the structural-error doctrine modifies a
defendant’s burden to satisfy all four plain-error factors remains unsettled. See,
e.g., United States v. Marcus, 560 U.S. 258, 263 (2010) (“[W]e have noted the
possibility that certain errors, termed ‘structural errors,’ might ‘affect substantial
rights’ regardless of their actual impact on an appellant’s trial.”); see also United
States v. Watson, 611 F. App’x 647,661 (11th Cir. 2015) (“Whether structural
error modifies a defendant’s burden to satisfy all four plain-error factors remains
an open question.”). Even if we were to assume that the first two elements of the
plain-error standard would be satisfied where a district court prevented a defendant
from discussing his testimony with his attorney during an overnight recess, it’s a
much closer call whether the third and fourth factors would be met.
Finally, setting aside the plain-error doctrine, the government also argues
here that we needn’t even consider Skillem’s argument because Skillem’s lawyer
“invited” any Sixth Amendment error that might have occurred. As a rule, a party
“may not challenge as error a ruling or other trial proceeding invited by that party.”
United States v. Silvestri, 409 F.3d 1311,1327 (11th Cir. 2005). While this Court
has held that we “may not invoke the plain error rule to reverse the district court’s
judgment” if an error is invited, United States v. Carpenter, 803 F.3d 1224,1236
11

Case: 16-14253

Date Filed: 03/08/2018

Page: 12 of 16

(11th Cir. 2015), the relationship between structural errors and the invited-error
doctrine is murky. Cf. United States v. Gaya, 647 F.3d 634,640 (7th Cir. 2011)
(holding that “there is no reason to exempt ‘structural errors’” from the invitederror doctrine).

So as you see, this case raises several issues that have yet to be—but will
eventually need to be—definitively settled in this Circuit. But as we’ve said, we
can leave them for another day, because as explained below, we conclude that
under the rule embraced in Crutchfield, Skillem was not actually deprived of his
Sixth Amendment right to counsel.
B
In Crutchfield, a majority of the en banc Court held that in order to make out
a Geders-type Sixth Amendment violation, a criminal defendant must demonstrate
that he and his counsel actually intended to confer during the recess and would
have done so if not prevented by the district court As already explained, in that
case, the district court directed a defendant’s lawyers not to discuss his testimony
with him during the course of a mid-trial break. On appeal, the six-judge plurality
opinion concluded: “Because the trial record does not reflect—by objection,
motion, or request—that [the defendant] and his counsel actually desired to confer
during the recess, we find that [the defendant] was not deprived of the right to
12

Case: 16-14253

Date Filed: 03/08/2018

Page: 13 of 16

assistance of counsel within the meaning of the sixth amendment.” 803 F.2d at
1109. In his concurring opinion, Judge Edmondson agreed: “In this case, the trial
record does not show that the defendant and defense counsel actually desired to
confer during the pertinent recess and would have conferred but for a restriction
placed upon them by the trial judge. Consequently, the trial record in this case
shows no deprivation of defendant’s right to counsel.” Id. at 1118-19
(Edmondson, J., concurring).
Our en banc decision in Crutchfield therefore establishes the principle that a
condition precedent to a Geders-Uke Sixth Amendment claim is a demonstration,
from the trial record, that there was an actual “deprivation” of counsel—i.e., a
showing that the defendant and his lawyer desired to confer but were precluded
from doing so by the district court. That actual-deprivation rule, the plurality
explained, “satisfies our concerns for the important constitutional right of
assistance of counsel, provides for the orderly conduct of trials, and makes sense.”
Id. It also, we note, squares with the decisions of two of our sister circuits. See
Stubbs v. Bordenkircher, 689 F.2d 1205,1207 (4th Cir. 1982) (“[I]n order to obtain
relief a petitioner must show a ‘deprivation’ of his Sixth Amendment rights by
demonstrating that he wanted to meet with his attorney but was prevented from
doing so by the instruction of the trial judge.”); Bailey v. Redman, 657 F.2d 21,
23-24 (3d Cir. 1981) (holding there was no Sixth Amendment violation where the
13

Case: 16-14253

Date Filed: 03/08/2018

Page: 14 of 16

■ defendant “fail[ed] to demonstrate that he was actually ‘deprived’ of his right to
consult with his attorney”).
The trial record here reflects no such “actual deprivation.” At the end of the
first day of Skillem’s testimony, after the jury was excused, the following
exchange occurred:
[Attorney]: And, Your Honor, may I speak to Mr. Skillem about
matters other than his testimony this evening The Court: Yes.
[Attorney]: - that may come up?
The Court: You can talk about the weather. What do you mean, other
than may come up? [sic] Not his testimony or his impending
testimony.
[Attorney]: Right, Your Honor, but maybe witness problems or things
like that?
The Court: Yes, anything about the proceeding and so forth, who’s
coming, who is not coming, that’s fine, but just not his testimony or
his impending testimony.
[Attorney]: Fine, Your Honor.
Trial Tr., Doc. No. 431-9, at 208-09.
The issue here isn’t just that Skillem’s lawyer failed to object to the district
court’s limitation. Instead, the problem is that the record is entirely devoid of any
indication—in any form—that Skillem or his attorney planned or wanted to confer

14

Case: 16-14253

Date Filed: 03/08/2018

Page: 15 of 16

about his testimony during the recess.3 To the contraiy, Skillem got from the
district court exactly what his lawyer asked for—namely, permission to speak
“about matters other than his testimony.” We therefore leave aside issues about
trial error, harmless error, structural error, plain error, and invited error, and instead
hold, under Crutchfield, that Skillem hasn’t shown that he was actually deprived of
his Sixth Amendment right to counsel.4
C

Skillem and Nelson have raised other issues on appeal. First, both contend
that they should have been acquitted on all counts because the jury was required to
accept their argument that they relied in good faith on the advice of an attorney.
Second, they challenge the sufficiency of the evidence supporting the mail-fraud
counts. Finally, Nelson argues that there was no legally sufficient evidence that he

To be clear, we do not hold that there must always be a formal objection where a district court
prevents attorney-client communication during an overnight recess. To the extent that
unpublished decisions from this Court might be read to suggest a hard-and-fast requirement that
a defendant formally object in order to preserve a Geders-type Sixth Amendment argument, or
that the plain-error standard necessarily applies absent such an objection, see, e.g., United States
v. Jubiel, 377 F. App’x 925,934-35 (11th Cir. 2010), we are not bound by them.
4 In a supplemental brief, Skillem seems to suggest that the absence of any desire to confer is not
dispositive. Instead, he argues, we must consider the “totality of the facts,” including that the
district court instructed other witnesses not to discuss their testimony with anyone. To the extent
that Skillem means to say that the district court’s instructions to other witnesses had some sort of
“chilling effect” that caused his own lawyer to ask to speak only about “matters other than
[Skillem’s] testimony,” we disagree. The mere fact that other, non-party witnesses were
instructed not to discuss their testimony with anyone has no particular bearing on Skillem’s
rights as a defendant.
15

Case: 16-14253

Date Filed: 03/08/2018

Page: 16 of 16

had an intent to defraud. All of these boil down to sufficiency-of-the-evidence
challenges, and after careful review of the record, we reject them.

m
For all of the reasons explained above, we affirm Skillem’s and Nelson’s
convictions.
AFFIRMED.

16

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 1 of 39

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13380-H
MICHAEL SKILLERN
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Michael Skillem is a federal prisoner serving a total term of 120 months’ imprisonment
after a jury found him guilty of conspiracy to commit mail fraud and wire fraud (“Count 1”), in
violation of 18 U.S.C. § 371, conspiracy to commit money laundering (“Count 2”), in violation
of 18 U.S.C. § 1956(h), mail fraud (“Counts 3-6”), in violation of 18 U.S.C. § 1341, and wire
fraud (“Counts 7-10”), in violation of 18 U.S.C. § 1343, in relation to his role as the majority
shareholder of Own Gold, LLC (“Own Gold”). After an unsuccessful direct appeal, Skillem
filed the present 28 U.S.C. § 2255 motion to vacate, set aside, of correct his sentence, raising
14 claims for relief1:
(1)

i

Trial counsel, Stanley G. Schneider, was ineffective for failing to raise
several arguments and objections based on the contention that the crimes

For clarity, we list Skillem’s claims as organized and restated by the district court.

.B
i - 30

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 2 of 39

with which Skillem was charged did not cover his international
transactions;
(2)

Schneider was ineffective for failing to object to the trial court’s failure to
question the prospective jury members regarding the defense of good faith
reliance on the advice of counsel;

(3)

Schneider was ineffective for failing to object to the testimony of Spanish
Police Inspector Francisco Vazquez regarding a foreign wiretap;

(4)

Schneider was ineffective for failing to argue for acquittal on Counts 3-6
on the basis that the Certificates of Ownership, the only mailings
identified in the indictment, were not inducements for the sales
transactions and failing to raise the issue on direct appeal;

(5)

Schneider was ineffective for failing to argue for acquittal on Counts 7-10
on the basis that the wires were internal to Own Gold and SHUKR

Holdings, LLC (“SHUKR”) and, thus, not part of any scheme to defraud;
(6)

Schneider was ineffective for failing to argue that the jury instructions for
the mail fraud and wire fraud charges lessened the government’s burden of
proof;

(7)

Schneider was ineffective for failing to properly argue (during trial and
motion for acquittal) or preserve issues related to his defense that he acted
in good faith on the advice of counsel and the advice of an expert report;

(8)

Schneider was ineffective for failing to object to (a) the trial court’s
instruction limiting Skillem’s ability to discuss his testimony with
Schneider during an overnight recesses during his testimony and (2) an
occasion on which the trial court asked Skillem to leave the courtroom
while attorneys had side bar;

(9)

Schneider was ineffective for failing to call Margaret Clifton, Michael
Clifton, and Lawrence Wunderlich to testify at trial;

(10)

Schneider was ineffective for failing to call an expert witness to rebut the
government’s witness regarding assays of Own Gold’s Nevada mining
claims;

(11)

Schneider was ineffective for failing to adequately prepare Skillem’s
personal counsel for business matters, Edward Lewis, for his testimony;

(12)

Schneider was ineffective for entering a joint defense agreement (“JDA”)
without Skillem’s consent and, consequently, also was ineffective in
arguing his chosen defense that codefendant Jon Craig Nelson, the CEO of
2

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 3 of 39

Own Gold, was solely responsible for the operation of, and offenses
committed through, Own Gold;
(13)

Schneider was ineffective for failing to move to sever Skillem’s trial from
Nelson’s trial; and

(14)

Schneider was ineffective for failing to raise sentencing errors on direct
appeal.

BACKGROUND:
In 2014, a federal grand jury indicted Skillem and three other codefendants—Nelson,
Naadir Cassim, and Adriana Camargo—on Counts 1-10.2 The indictment charged that Skillem
was a United States citizen and resident of Texas and that he, along with his codefendants,
conspired to and did facilitate the sale to victims of nonexistent gold ore from mines owned by
his codefendants in Montana and Nevada. It charged that Skillem produced and caused the
production of false and fraudulent documentation and information to create the illusion that Own
Gold was mining and processing gold to be sold, and he received funds paid by the victims, both
inside and outside the United States, who purchased the nonexistent gold. “[I]t was further part
of the conspiracy that conspirators would and did send . . . via wire transfer, victims’ funds to
accounts ... in order to perpetuate the fraud scheme... [and] to the accounts of conspirators ...
for conspirators’ personal enrichment.” In relevant part, the indictment charged that Skillem, “in
11

'

-

•

the Middle District of Florida and elsewhere,” caused several victims in the United Kingdom and
the Middle District of Florida to wire payments totaling several hundred thousand dollars to Own
Gold’s bank account in Texas. In return, Skillem, from Orlando, Florida, mailed those victims
Certificates of Ownership, purportedly evidencing that they had purchased gold from the mines
owned by Own Gold. Skillem also laundered money by wiring $201,230.00 from Own Gold’s

2 Skillem was also indicted on three counts of committing illegal monetary transactions,
but the district court later granted his motion for a judgment of acquittal on those counts.
3

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 4 of 39

bank account in Texas to an account in St Vincent and the Grenadines. Finally, the indictment
also charged that Skillem, in the Middle District of Florida, committed wire fraud by wiring
funds from Own Gold’s bank account to the bank account held by-Cassim for SHUKR, an
Orlando, Florida, company owned by Nelson.
Skillem and his codefendants pled not guilty to the charges, and their case proceeded to a
joint trial, where Schneider represented Skillem. Prior to trial, Skillem submitted a trial brief,
indicating that his defense theories would be that (1) Own Gold was a “horribly mismanaged but
well intended business,” and (2) he acted in good faith in reliance on advice from counsel. He
also submitted proposed voir dire questions and proposed jury instructions. As relevant here, he

proposed that the court ask the prospective jurors the following question:
The law says that good faith reliance on the advice of an attorney is a complete
defense to the charges in the indictment. Evidence that a defendant in good faith
followed the advice of counsel would be inconsistent with an unlawful intent to
obtain money by fraudulent means as alleged in the indictment. The law requires
before this rule applies a defendant must make a full and complete good faith
report of all material facts to an attorney the defendant considers competent, the
defendant received the attorney advice as to a specific course of conduct that was
followed and the defendant reasonably relied upon that advice in good faith.
Does anyone disagree with this law?
The trial judge rejected Skillem’s proposed question, stating that the court would advise the
prospective jury members on the law and instruct them that they would be “duty bound to follow
the law whether they agree with it or disagree with it, and I’ll inquire whether anyone would not
be able to meet that requirement.”
Skillem’s trial lasted 15 days. During opening statements, Schneider noted that Skillem
relied on “Lewis, his advice and counsel, every step of the way .... as a stockholder and not of
management... His hands were tied at times by what [Nelson] wanted to do.”

4

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 5 of 39

Following opening statements, the evidence generally established that Skillem and
Nelson started Own Gold in 2011 for the purpose of mining, processing, and selling gold. Own
Gold’s website and marketing materials represented that it was a “gold producer” with mining
claims in Nevada and Montana worth $81 billion.

For two years, Own Gold used a

telemarketing firm to execute contracts with hundreds of people who believed that they were
buying gold. Those contracts specified the amounts of gold purchased and the prices and
represented that customers could retrieve their gold ore “at any time after the execution and
payment of consideration” by “appear[ing] in person” at the mining site. Otherwise, Own Gold
had 360 days to deliver the gold. If it failed to do so, it would refund the purchase price. All
told, Own Gold accepted 441 orders and collected more than $7.3 million from customers.
However, from its inception until it stopped executing sales contracts with customers
in 2014, Own Gold produced less than six ounces of gold from its own mining operations. In
light of its near-total failure to produce any gold from its own mines, Own Gold resorted to
trying to fulfill customers’ orders by purchasing gold from third parties. Even so, Own Gold
ultimately delivered only 150 ounces of gold—valued at $241,000—to 20 customers. Own Gold
refunded only $35,022 to 4 customers, and none of the other orders were fulfilled or refunded.
Meanwhile, Skillem profited approximately $488,000, Nelson collected about $300,000, and
Own Gold’s telemarketing firm netted $5.1 million over a two-year period.
As to the relevant, specific evidence presented, the government offered the testimony of
Inspector Vazquez, a police officer for the Spanish Government. Inspector Vazquez testified
that he had been the case agent for an investigation on Cassim and Camargo in Spain. He
testified that, in the course of his investigation, he filed an application to intercept Cassim’s and
Camargo’s phone calls in Spain, and the application was approved. The government then

5

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 6 of 39

introduced three of those phone calls—one call between Cassin and Nelson and two calls
between Cassin and Camargo—through the testimony of Special Agent Alexander Hagedom, an
assistant attache, in London, England, for Homeland Security Investigations. The phone calls
revealed discussions among the codefendants about: (1) obtaining missing gold to complete
orders; (2) obtaining gold that resembled the samples used.in selling gold to customers;
(3) answering an important client’s phone calls to “buy [Own Gold] two months or three months
or six months” to produce missing gold; (4) the consequences of not having “deliverable gold”
for a particular buyer; (5) the fact that Nelson and Skillem were “not using the money on what
they’re supposed to”; (6) the fact that sales slowed down because the company could not deliver

gold to its existing customers; and (7) the facLthat Nelson insisted on obtaining new customers
when he knew that Own Gold could not deliver gold to its existing customers.
Mark Randall Chatterton, a review mineral examiner and a branch chief for the
Department of Interior’s Bureau of Land Management, testified that he personally participated in
collecting samples from Own Gold’s mining claim sites in Nevada. He testified that there was
no evidence of available electricity, water, or mining equipment at the sites. Chatterton sent the
samples obtained from the sites to an assayer, who tested the samples. Chatterton testified
concerning the assayer’s report and opined that none of the levels of metals found in the samples
of the sites could have supported an economically feasible mine.
Several victims testified concerning the manner in which they were defrauded by Own
Gold. The victims noted that, after they paid Own Gold for the advertised gold, they received a
Certificate of Ownership by mail, indicating their ownership of the purchased amount of gold.
The victims testified that they understood their receipt of the Certificates of Ownership to be
proof that they, in fact, owned the gold they had purchased from Own Gold. Each Certificate of

6

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 7 of 39

Ownership displayed the quantity of gold purchased, Nelson’s signature, and Own Gold’s
company seal. The government also submitted evidence demonstrating that, after the victims
wired the funds for the purchased gold to Own Gold, those funds would then be wired to
salespeople and telemarketers to fund Own Gold’s continued scheme and to the codefendants for
their own personal enrichment.
Skillem testified on the tenth and eleventh days of the trial. He generally testified that he
agreed to begin Own Gold after reviewing a report created by Scott Spooner (“the Spooner
Report”), which ostensibly showed that the land that would be Own Gold’s had enough gold and
other minerals to support mining endeavors. Skillem also testified that he was the majority
shareholder for Own Gold, that he did not make decisions for Own Gold, and that Nelson was
the individual who ran Own Gold. He testified that he sought and followed Lewis’s advice
concerning the Spooner Report prior to beginning Own Gold. He also sought and followed
Lewis’s advice concerning all of his Own Gold dealings and problems, including whether Own
Gold possibly was subject to criminal or civil liability throughout its lifespan. Skillem noted that
Lewis eventually joined the Board of Directors for Own Gold. Skillem also testified that
“everybody that was involved with the company” complained about the manner in which Nelson
was running Own Gold. During his cross-examination, Skillem revealed that the Spooner
Report actually related to a different mining site than Own Gold’s site and that Skillem paid
$264to have the report altered to appear to refer to Own Gold’s site.
The court took a brief recess in the middle of Skillem’s testimony on the tenth day of the
trial. Prior to the recess, Skillem asked the court if he was “allowed tohave conversation agjgng
as [he didn’t] discuss the testimony or the company or anything?” The court respondgdJTeg.”
Later, when the court concluded its proceedings for the tenth day, Schneider asked the court

7

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 8 of 39

whether he could “speak to Mr. Skillem about matters other than his testimony . . . maybe
witness problems or things like that,” that evening. The court responded, “Yes, anything about
the proceeding and so forth, who’s coming, who is not coming, that’s fine, but just not his
testimony or his impending testimony.”
During the lunch break on the eleventh day of trial, the court told Skillem, “You should
probably step out, Mr. Skillem, just for now, until I see if there are any issues that might come up
in the next little bit concerning your testimony.” Once Skillem left the courtroom, the attorneys
for the government and Skillem’s codefendants raised a concern about the possible admission of
hearsay testimony from a United Kingdom investigator that would be elicited through Lewis’s

impending testimony. However, Schneider eventually revealed that Lewis’s testimony could not
involve any such hearsay testimony because the investigator had not spoken to Lewis.
Thereafter, Skillem retook the stand and completed his testimony.
Lewis, in turn, testified that he received the Spooner Report from Skillem and reviewed it
in order to provide legal.advice, but that he did not know that Skillem had modified the report
ahead of time. Lewis also testified that he was unaware of any negative assay results from Own
Gold’s Nevada site and that he had not known that the prior owner of Own Gold’s mining lease
had been unable to produce any gold from the site since 1991. He agreed that that information, if
true, would have been material to his legal assessment. However, Lewis also testified that he
was not concerned with Own Gold’s Nevada site because he preferred to focus on the productive
Montana mining site. He testified that the Montana site would have been able to produce gold as
soon as the company was “able to get the big dredge working.” However, when confronted with
-i

1

"

■—1

'

i.

—

■

— ■

the information that Own Gold lacked a permit to operate a big dredge, Lewis testified that no
one had told him that information. He also conceded that neither Nelson nor Skillem had

8

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 9 of 39

informed him of the total ounces of gold actually produced by Own Gold and that that
information would have been material to his legal advice.
During closing arguments, Schneider extensively argued that Lewis continuously advised
Skillem that Own Gold should continue making sales, that Own Gold was a bom fide company,
and that Skillem was not subject to criminal liability for his role in Own Gold’s business. He
argued that Skillem acted at all times relying on Lewis’s advice. Schneider also argued that
Skillem made full and complete disclosure to Lewis when requesting legal business advice
concerning Own Gold. He also argued that Skillem “rightly” relied on the Spooner report in
believing that Own Gold’s mining operation would be successful. Schneider emphasized that
“[t]he law is clear. There is no intent to defraud when you seek advice from a lawyer and the
lawyer knows the facts, and the lawyer relies on you and you rely on what the lawyer tells you.”
Following closing arguments, the district court instructed the jury concerning the charges
against Skillem and his codefendants. As relevant here, the court instructed the jury that Skillem
could be found guilty of mail fraud only if the government proved that Skillem used a private or
commercial interstate carrier “by depositing or causing to be deposited with the carrier,
something meant to help carry out the scheme to defraud.” As to the charge of wire fraud, the
court instructed the jury that the government had to prove that Skillem “transmitted or caused to
be transmitted by wire some communication in interstate commerce to help carry out the scheme
to defraud.” At Skillem’s request, the court also instructed the jury on the defenses of good faith
and good faith reliance upon advice of counsel. Finally, the court cautioned the jurors: “You
must consider each crime and the evidence relating to it separately. And you must consider the
case of each Defendant separately and individually. If you find a Defendant guilty of one crime,
that must not affect your verdict for any other crime or any other Defendant.”

9

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 10 of 39

Following deliberations, the jury found Skillem guilty of Counts 1-10.

Prior to

sentencing, Skillem, through Schneider, filed a joint Fed. R. Crim. P. 29 motion for judgment of
acquittal and Fed. R. Crim. P. 33 motion for a new trial, arguing that he was entitled to the relief
requested because the government did not present any evidence to rebut his defense that he relied
in good faith on the advice of counsel in all his dealings with Own Gold. The district court
denied the motions.
A probation officer prepared a presentencing investigation report (“PSI”), which assigned
Skillem a guideline range of 210 to 262 months’ imprisonment The PSI’s calculations noted
that, because it did not “appear that his testimony was materially untruthful!, and] . . . his

testimony was inculpatory and indicated his guilt,” Skillem was not subject to a sentence
enhancement for obstruction of justice. The calculations also refused to apply a sentence
reduction for acceptance of responsibility because Skillem “entered a not guilty plea [and] put
the government to its burden of proof at trial.”

Finally, the calculations included an

enhancement for his role as the leader or organizer of a conspiracy that “was otherwise
extensive.”
At sentencing, Schneider objected to the PSI’s omission of a two-level reduction to
Skillem’s guideline sentence calculation for acceptance of responsibility. In doing so, he pointed
to the PSI’s statement that Skillem had testified truthfully and in an inculpatory manner and to
the fact that Skillem consistently had indicated that his intent was to make the victims whole.
Schneider also objected to the PSPs inclusion of an enhancement for Skillem’s alleged
leadership role, and he objected to the PSPs omission of a downward variance based upon an
incomplete defense of reliance on the advice of counsel as a mitigating factor. The court,
however, overruled every objection and adopted the PSPs calculations. After Schneider argued

10

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 11 of 39

in mitigation and the government argued for a guideline sentence, the sentencing court varied
downward and sentenced Skillem to a total sentence of 120 months’ imprisonment Schneider
did not raise any new objections after the imposition of the sentence.
Skillem, through Schneider, directly appealed and raised the following issues: (1) the
district court’s instruction for Skillem to have no communication with his lawyer concerning
substantive issues pertaining to his defense during the overnight recesses from Skillem’s
three-day testimony (“recess instruction”) abrogated Skillem’s right to counsel; (2) the evidence
was insufficient to convict Skillem of Counts 3-6 because the mailings identified in the
indictment—the Certificates of Ownership—were receipts reflecting that a purchase had
occurred and not inducements for sales transactions; and (3) the evidence was insufficient to
convict Skillem because the government failed to rebut his defense that he relied in good faith on
Lewis’s advice in all his Own Gold dealings.
We ultimately affirmed Skillem’s convictions and total sentence,

In doing so, we

summarily denied his sufficiency of the evidence arguments. As to his argument that he had
been denied counsel by the district court’s recess instruction, we held that, under our en banc
decision in Crutchfield v. Wainwright, 803 F.2d 1103 (11th Cir. 1986), Skillem had not shown
that he was actually deprived of his Sixth Amendment right to counsel because, notwithstanding
the district court’s recess instruction, the record was “entirely devoid of any indication—in any
form—that Skillem or his attorney planned or wanted to confer about his testimony during the
recess.” To the contrary, we noted that “Skillem got from the district court exactly what his
lawyer asked for—namely, permission to speak ‘about matters other than his testimony.’”
The present § 2255 motion followed. After considering the government’s response and
Skillem’s reply, the district court issued an order denying Skillem’s § 2255 motion because

11

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 12 of 39

Skillera had failed to make the requisite showing of deficiency and prejudice for each of his
ineffective-assistance-of-counsel claims. The district court also denied Skillem a certificate of
appealability (“COA”). Thereafter, Skillem appealed, and he now moves for a COA.
In order to obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. §2253(cX2).

The movant satisfies this requirement by

demonstrating that reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong, or that the issues deserve encouragement to proceed
further. Slack v. McDaniel, 529 U.S. 473,484 (2000) (quotations omitted). When reviewing a
--------

-----------------

district court’s denial of a § 2255 motion, we review findings of fact for clear error and questions
of law de novo. Rhode v. United States, 583 F,3d 1289,1290 (11th Cir. 2009). Absent evidence
of clear error, this Court usually considers itself bound by a district court’s findings of fact and
credibility determinations. McGriffv. Dep’tofCorr., 338 F.3d 1231,1238 (11th Cir. 2003).
a successful claim of ineffective assistance of counsel, a defendant must show
rboth thatTo make
(1) his counsel’s performance was deficient; and (2) the deficient performance
prejudiced his defense.. Strickland v. Washington, 466 U.S. 668, 687 (1984).

Deficient

performance “requires showing that counsel made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Id. To
establish prejudice, a defendant must show “there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been different.” Id.
at 694. “A reasonable probability is a probability sufficient to undermine confidence in the
\. outcome.” Id. Failure to establish either prong is fatal and makes it unnecessary to consider the
other. Id. at 697.

—
i

S'*

a _

12

\ *• — '

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 13 of 39

A petitioner’s conclnsory statements, unsupported by specific facts or by the record, are
insufficient to state a claim for ineffective assistance of counsel in a collateral proceeding.
Tejada v. Dugger, 941 F.2d 1551, 1559 (11th Cir. 1991). Moreover, we have hel<rThat-4t-4s
axiomatic that the failure to raise nonmeritorious issues does not constitute ineffective
assistance.” Bolenderv. Singletary, 16F.3d 1547, 1573 (11th Cir. 1994).
Claim 1
In his Claim 1, Skillem argued that Schneider was ineffective for failing to move to
dismiss the indictment on the basis that it charged crimes that occurred outside the territorial
jurisdiction of the United States. He also argued that Schneider, consequently, was ineffective
for failing to request a voir dire question and jury instruction about the presumption against
extraterritoriality and in not objecting to the inclusion of foreign losses at sentencing. Further,
Skillem argued that, to the extent that there was an ambiguity regarding the presumption against
extraterritoriality’s application to the applicable wire fraud and mail fraud statutes, the rule of
lenity provided him a “defense” against the charges.
The district court denied Claim 1. It found that Schneider was not deficient in failing to
raise the objections and arguments identified by Skillem because: (l)the money laundering
statute under which Skillem was charged applied extraterritorially in his case; (2) the conduct
relevant to the charges of mail and wire fraud’s focus occurred in the United States; and
(3) Skillem’s argument concerning the rule of lenity was misplaced as the statutes in question
were not ambiguous.
The presumption against extraterritoriality holds that, absent clearly expressed
congressional intent to the contrary, federal laws will be construed to have only domestic
application. RJR Nabisco, Inc. v. European Cmty., 136 S. Ct. 2090, 2100 (2016). The question

13

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 14 of 39

is whether Congress has affirmatively and unmistakably instructed that the statute will apply to
foreign conduct. Id “When a statute gives no clear indication of an extraterritorial application,
it has none.” Morrison v. Nat’l Australia Bank Ltd, 561 U.S. 247,255 (2010).
The U.S. Supreme Court has pronounced a two-step framework for analyzing
extraterritoriality issues. RJR Nabisco, Inc., 136 S. Ct. at 2101. The first step asks whether the
presumption against extraterritoriality has been rebutted—that is, whether the statute gives a
clear, affirmative indication that it applies extraterritorially.

Id

If the statute is not

extraterritorial, then the second step asks whether the case involves a domestic application of the
statute by looking to the statute’s “focus.” If the conduct relevant to the statute’s focus occurred

in the United States, then the case involves a permissible domestic application even if other
conduct occurred abroad. However, if the conduct relevant to the focus occurred in a foreign
country, then the case involves an impermissible extraterritorial application regardless of any
other conduct that occurred in U.S. territory. Id
The money laundering statute relevant to this case applies extraterritorially if the conduct
prohibited by the statute was “by a United States citizen . . . and the transaction or series of
related transactions involve [d] funds or monetary instruments of a value exceeding or monetary
instruments of a value exceeding $10,000.” 18 U.S.C. § 1956(f). An individual commits mail
fraud when he, “having devised or intending to devise any scheme or artifice to defraud . . .
deposits or causes to be deposited any matter or thing whatever to be sent or delivered by any
private or commercial interstate carrier.” 18 U.S.C. § 1341.

Similarly, 18 U.S.C. § 1343

provides that an individual commits wire fraud when he, “having devised or intending to devise
any scheme or artifice to defraud ... transmits or causes to be transmitted by means of wire . . .
any writings, signs, signals, pictures, or sounds for the purpose of executing such scheme or

14

USCA11 Case: 20-13380

artifice.”

18 U.S.C. § 1343.

Date Filed: 04/16/2021

Page: 15 of 39

Both 18 U.S.C. §§ 1341 and 1343 are silent as to their

extraterritorial application.
Here, reasonable jurists would not debate the district court’s denial of Skillem’s Claim 1.
See Slack, 529 U.S. at 484.

First, the indictment’s money laundering charges applied

extraterritorially because the indictment charged that Skillem was a citizen of the United States
who laundered “funds ... of a value exceeding $10,000.”

See 18 U.S.C. § 1956®.

Accordingly, any argument by Schneider to the contrary in a motion to dismiss the indictment,
request for voir dire questions, request for jury instructions, or objection at sentencing would
have been meritless, and Schneider, thus, was not ineffective in failing to raise such an argument.
See Bolender, 16 F.3d at 1573.
Second, as to the mail and wire fraud charges, although the relevant statutes are silent as '
to their extraterritorial application and, thus, are not extraterritorial, ^killem’s case involves a j
permissible domestic application of the statutes. See RJR Nabisco, Inc., 136 S. Ct. at 2101. 1
Specifically, the language of the mail fraud statute criminalizes the depositing of a matter or /
thing to be sent or delivered by a private carrier for the purposes of executing a scheme to
defraud, and the language of the wire fraud statute criminalizes the transmitting by means of wire
for the purpose of executing a scheme to defraud. 18 U.S.C. §§ 1341 and 1343. Accordingly,
the focuses of the mail and wire fraud statutes are the acts of “depositing” and “transmitting,”
respectively. See RJR Nabisco, Inc., 136 S. Ct at 2101. Because the indictment charged that
Skillem, to execute a scheme to defraud, deposited Certificates of Ownership for mailing from
Orlando, Florida, the conduct relevant to the mail fraud statute in this case occurred in the United
States. Id. Similarly, the indictment charged that Skillem, in the Middle District of Florida,
transmitted funds to execute a scheme to defraud, and, thus, the conduct relevant to the wire

15

USCA1 1 Case: 20-13380

Date Filed: 04/16/2021

Page: 16 of 39

fraud statute in this case also occurred in the United States. Id Accordingly, Skillem’s case
involved a permissible domestic application of the mail and wire fraud statutes, even if his
offenses also involved conduct that occurred abroad, and any extraterritoriality argument in that
respect by Schneider in a motion to dismiss the indictment, request for 'voir dire questions,
request for jury instructions, or objection at sentencing would have been meritless. Id As such,
Schneider was not ineffective in failing to raise such an argument. See Bolender, 16 F.3d
at 1573.
Finally, Skillem’s rule-of-lenity argument was misplaced* as his case did not involve any
ambiguous statute. See United States,v. Wright, 607 F.3d 708, 716 (11th Cir. 2010) (noting that

the “rule of lenity” is a “canon of statutory construction that requires courts to construe
ambiguous criminal statutes narrowly in favqr of the accused”). Accordingly, no COA will
issue as to Claim 1.

, .

Claim 2
In his Claim 2, Skillem argued that Schneider had been ineffective for failing to preserve
a challenge to the trial court’s decision not to question the jury regarding.their agreement with
the law concerning the defense of good faith reliance on the advice of counsel. The district court
denied Claim 2, finding that Skillem failed to establish that Schneider had been deficient because
the trial court made clear that the jurors would be instructed on their obligation to follow the law
regardless of their agreement with it. The district court also noted that Skillem had failed to
establish that his case had been prejudiced by Schneider’s performance, as an objection to the
trial court’s refusal to question the jurors on their agreement with the law would have been
meritless.

16

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 17 of 39

The purpose of voir dire examination is to allow the government and the defendant to
evaluate and select an impartial jury capable of fairly deciding the issues presented by applying
the law as instructed by the court to the facts as produced during the trial. United States v.
Shavers, 615 F.2d 266,268 (5th Cir.1980). The method of conducting the voir dire is left to the
sound discretion of the trial court and will be upheld unless an abuse of discretion is found.
United States v. Butera, 677 F.2d 1376, 1383 (11th Cir. 1982). The voir dire conducted by the
trial court need only provide “reasonable assurance that prejudice will be discovered if present.”
United States v. Holman, 680 F.2d 1340, 1344 (11th Cir. 1982).

“It is not an abuse

of... discretion to refuse to allow inquiries of jurors as to whether they can accept certain
propositions of law.” United States v. Ledee, 549 F.2d 990,992 (5th Cir. 1977).
Reasonable jurists would not debate the denial of Skillem’s Claim 2, as it is foreclosed by
binding precedent. See Slack, 529 U.S. at 484. Skillem argues that Schneider should have
objected to the trial court’s refusal to ask the prospective jurors: “The law says that good faith
reliance on the advice of an attorney is a complete defense to the charges in the
indictment.... Does anyone disagree with this law?” However, binding precedent dictates that
die trial court’s refusal to allow inquiries, such as Skillem’s proposed inquiry, of jurors as to
whether they can accept certain propositions of law is not an abuse of discretion. See Ledee, 549
F.2d at 992. Accordingly, Schneider was not ineffective in failing to challenge the trial court’s
refusal to ask the prospective jurors whether they agreed with the law concerning the defense of
good faith reliance on the advice of counsel because any such objection would have been
meritless. See Bolender, 16 F.3d at 1573. Thus, no COA will issue as to Claim 2.

17

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 18 of 39

Claim 3
In his Claim 3, Skillem argued that Schneider was ineffective for failing to object to the
testimony of Inspector Vazquez regarding the foreign wiretaps he conducted in relation to his
investigation of Cassim and Camargo. He argued that Schneider should have objected because
the government failed to show that the foreign wiretaps met the requirements of 18 U.S.C.
§2510 etseq.
The district court denied Claim 3, finding that the wiretaps to which Inspector Vazquez
testified were not subject to the statutory requirements of United States law. The court also
found that neither of the two exceptions to the rule exempting foreign wiretaps from the statutory

requirements of United States law were present in Skillem’s case.
Evidence obtained by foreign police officers from searches carried out in their own
countries is generally admissible in United States courts regardless of whether the search
complied with United States legal requirements. See United States v. Rosenthal, 793 F.2d 1214,
1230 (11th Cir. 1986) (holding that wiretaps obtained by Colombian law enforcement officials in
Colombia were admissible evidence regardless of whether the wiretaps complied with the Fourth
Amendment). Two exceptions exist to this general rule. Id. at 1230-31. The first exception
provides for the exclusion of evidence obtained by foreign police officers if the conduct of the
foreign officers shocks the conscience of the American court. Id

The second exception

provides for the exclusion of the evidence where American law enforcement officials
substantially participate in the foreign search, or, if the foreign authorities conducting the search
were acting as agents for their American counterparts. Id. at 1231.
Reasonable jurists would not debate the district court’s denial of Claim 3 because any
objection Schneider would have raised to the introduction of any evidence obtained through the

18

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 19 of 39

foreign wiretaps would have been meritless. See Slack, 529 U.S. at 484; Bolender, 16F.3d
at 1573. The wiretaps that Inspector Vazquez conducted in Spain were not subject to the
requirements of 18 U.S.C. § 2510.

See Rosenthal, 793 F.2d at 1230.

Moreover, the

circumstances of this case do not give rise to either of the exceptions to the general rule that
evidence obtained from foreign searches is admissible in United States courts regardless of the
search’s compliance with American legal requirements. See id. at 1230-31. First, the manner in
which Inspector Vazquez obtained the foreign evidence admitted at trial does not shock the
conscious of this Court, as he testified that he filed an application to conduct the wiretaps with
the appropriate Spanish authority before intercepting the calls in question. Id Second, no
American law enforcement officers participated in the foreign wiretaps. See id at 1231. Thus,
Schenieder was not ineffective in failing to challenge Inspector Vazquez’s testimony concerning
tire foreign wiretaps, and no COA will issue as to Claim 3.
Claim 4
In his Claim 4, Skillem argued that Schneider Was ineffective for failing to argue for
acquittal on Counts 3-6 on the basis that the Certificates of Ownership that Own Gold mailed to
its clients, the only mailings identified in support of Counts 3-6 in the indictment, were not
inducements for sales transactions and, thus, were not part of the execution of the fraud scheme.
He also argues that Schneider was ineffective for failing to raise the issue on direct appeal. The
district court denied Claim 4, finding that the Certificates of Ownership were part of the
execution of the fraudulent scheme attributed to Own Gold because they were used to lull the
victims into complacency and thereby avoid detection.
“Mail fraud consists of the fallowing elements: (1) an intentional participation in a
scheme to defraud a person of money or property, and (2) the use of the mails in furtherance of

19

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 20 of 39

the scheme.” United States v. Sharpe, 438 F.3d 1257, 1263 (11th Cir.2006) (quotations omitted).
In order to fall within the scope of 18 U.S.C. § 1341, a mailing must constitute part of the
execution of the fraud. United States v. Evans, 473 F.3d 1115, 111 8—19 (11th Cir.2006). “To be
part of the execution of the fraud, however, the use of the mails need not be an essential element
of the scheme. It is sufficient for the mailing to be incident to an essential part of the scheme or
a step in [the] plot.” Schmuck v. United States, 489 U.S. 705, 710-11 (1989) (citations and
quotations omitted).
However, after a scheme has reached fruition, mailings generally cannot have been “for
the purpose of executing” the scheme, as 18 U.S.C. § 1341 requires. United States v. Hill, 643

F.3d 807, 858 (11th Cir. 2011). Under the “lulling exception” to that rule, mailings are
sufficiently a part of the execution of a fraudulent scheme if they are used to lull the scheme’s
victims into a false sense of security that they are not being defrauded, thereby allowing the
scheme to go undetected.

Hill, 643 F.3d at 859. A lulling mailing may be “incident to an

essential part of the scheme” even after the fraud has been successfully perpetrated if the mailing
is critical to conceal the scheme. Id When “the scheme includes not only obtaining the benefit
of the fraud but also delaying detection of the fraud by lulling the victim after the benefit has
been obtained, the scheme is not fully consummated, and does not reach fruition, until the lulling
portion of the scheme concludes.” United States v. Evans, 473 F.3d 1115,1120 (11th Cir. 2006).
Here, reasonable jurists would not debate the district court’s denial of Claim 4 because
the Certificates of Ownership identified in the indictment were lulling mailings and,
consequently, sufficiently part of the execution of Own Gold’s fraudulent scheme. See Slack,
529 U.S. at 484; Hill, 643 F.3d at 859. Specifically, the government presented evidence at trial
that the victims of Own Gold’s schemes believed that their receipt of the Certificates of

20

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 21 of 39

Ownership meant that they were entitled to the gold they had purchased from Own Gold, as each
Certificate displayed the quantity of gold purchased, Nelson’s signature, and Own Gold’s
company seal. Thus, the mailed Certificates of Ownership advanced Own Gold’s fraud scheme
because they lulled customers into a false sense of security that their gold ownership was safe
and that Own Gold’s operations were legitimate. See Hill, 643 F.3d at 859. As such, any motion
for acquittal or challenge on direct appeal by Schneider on the grounds that the Certificates of
Ownership were not mailed in furtherance of the scheme to defraud would have been meritless,
and Schneider was not ineffective for failing to raise such a motion or challenge. See Bolender,
16 F.3d at 1573. No COA will issue as to Claim 4.
Claim 5
In his Claim 5, Skillem argued that Schneider had been ineffective for failing to argue for
acquittal on Counts 7-10 in his Rule 29 motion on the basis that “the internal transactions
between Own Gold, LLC and Shukr were insufficient to constitute wire fraud” because “the
scheme to defraud if any was complete on the wire transfer from the purchaser.” The district
court denied Claim 5, finding that “[t]he wires to the victims were the antepenultimate
transactions in the wire fraud scheme; the wires between the perpetrators, the penultimate
transactions, with the withdrawal and dissipation of funds by the fraudsters being the ultimate
transactions.” The court found that, because the government proved those actions at trial,
Schneider was not ineffective for declining to move for acquittal on Counts 7-10 or to preserve
the issue for appeal.
To prove the crime of wire fraud under 18 U.S.C. § 1343, the government must establish
that defendant “(1) intentionally participated in a scheme to defraud; and (2) used wire
communications to further that scheme.” United States v. Ross, 131 F.3d 970, 984 (11th

21

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 22 of 39

Cir. 1997) (quotations omitted). In that regard, “[t]he relevant question at all times is whether
the [wire] is part of the execution of the scheme as conceived by the perpetrator at the time.”
Schmuck v. United States, 489 U.S. 705, 715 (1989). The wire transmission itself “need not be
essential to the success of the scheme to defraud.” United States v. Hasson, 333 F.3d 1264,1273
(11th Cir. 2003). Rather, the wire transmission is “for the purpose of executing the scheme to
defraud if it is incident to an essential part of the scheme or a step in the plot” Id (quotations
omitted).
Reasonable jurists would not debate the district court’s denial of Claim 5. See Slack, 529
U.S. at 484. The indictment charged and the government presented evidence at trial that the
wires sent by Skillem, including those he sent from Own Gold to Shukr, were for the purpose of
(1) paying employees and the telemarketing agency and (2) enriching the codefendants. As such,
the wires in question were, at least, incidental to the essential parts of the scheme of keeping
Own Gold’s operation active—the perpetuation of the fraud scheme—and paying out the
codefendants—the ultimate objective of the fraud scheme. See Hasson, 333 F.3d at 1273. Thus,
contrary to Skillem’s argument, the wire transfers from Own Gold to Shukr were for the purpose
of executing the scheme to defraud in this case, and Schneider was not ineffective for failing to
raise an argument to the contrary in his Rule 29 motion for judgment of acquittal. See id;
Bolender, 16 F.3d at 1573. Accordingly, no COA will issue as to Claim 5.
Claim 6

In his Claim 6, Skillem argued that Schneider had been ineffective for failing to argue
that the jury instructions given for the mail fraud and wire fraud charges lessened the
government’s burden of proof. Specifically, he argued that the instructions wrongly required

22

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 23 of 39

only that the mailing or wire must be “meant to help cany out the fraud,” rather than “for the
purpose of executing the scheme to defraud.”
The district court denied the claim, finding that Skillem foiled to show that the language
of the instructions given by the trial court differed in a significant manner from the language he
identified. It also found that Skillem failed to establish that Schneider was deficient in failing to
object to the jury instructions because they accurately informed the jury of the elements of the
crimes that the government was required to prove. Further, the court noted that Skillem failed to
show any prejudice, as he did not show that any error in the instruction contributed to the jury’s
verdict.
A jury instruction which omits an element of the charged offense is generally subject to a
harmless error analysis. Ross v. United States, 289 F.3d 677, 681 (11th Cir. 2002). Under that
analysis, a defendant is entitled to habeas relief when an error results in actual prejudice because
it “had substantial and injurious effect or influence in determining the jury’s verdict.” Id at 682.
“If, when all is said and done, the [court’s] conviction is sure that the error did not influence, or
had but very slight effect, the verdict and the judgment should stand.” Id at 683 (quotations
omitted). The relevant statutes for both mail fraud and wire fraud provide that the prohibited
acts violate the statute if they are committed “for the purpose of executing” a scheme or artifice
to defraud. 18 U.S.C. §§ 1341 and 1343.
Reasonable jurists would not debate the district court’s denial of Skillem’s Claim 6. See
Slack, 529 U.S. at 484. First, Schneider was not deficient in objecting to the given mail and wire
fraud jury instructions because the instructions given by the trial court tracked the language of
the relevant statutes, albeit in a simpler manner. See 18 U.S.C. §§ 1341 and 1343; United States
v. Hum, 368 F.3d 1359, 1362 (11th Cir.2004) (“[A]n instruction that tracks the statute’s text will

23

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 24 of 39

almost always convey the statute’s requirements.”). Nevertheless, notwithstanding any deficient
performance by Schneider, Skillem failed to establish that he was .prejudiced by the mail and
wire fraud jury instructions, as he did not show that any error in the instructions had a substantial
and injurious influence in the jury’s verdict. See Ross, 289 F.3d at681. .Specifically, the
government introduced evidence to support a finding that the mailings and wires by. Skillem
were “meant to help carry out the fraud” that he and his codefendants had planned. Given the
similarity in substance between the given instructions and the statutory language, absent new
evidence of the jury members’ deliberations, any argument by Skillem that the juiy would have
acquitted him of the mail and wire fraud charges but for the language of the given instructions is
purely speculative. Because Skillem, consequently, has failed to establish that he was prejudiced
by any error on Schneider’s behalf, no COA will issue as to Claim 6. See Strickland, 466 U.S.
at 694,697; Tejada, 941 F.2d at 1559.

•

i»

Claim 7
In his Claim 7, Skillem argued that Schneider had been ineffective for failing to properly
argue or preserve issues related to his chosen defense that he acted in good faith on the advice of
counsel and the advice of the Spooner Report. The district court denied this claim because,
contrary to Skillem’s arguments, “counsel spend a great deal of his defensive strategy pressing
the claim that Skillem relied on the advice of counsel.”
Here, reasonable jurists would not debate the district court’s denial of Claim 7 because
the claim is directly refuted by the record. See Slack, 529 U.S. at 484; Tejada, 941 F.2d at 1559.
Schneider presented Skillem’s chosen defense of good faith reliance on advice of counsel during
his opening statement, closing argument, and motion for acquittal. Moreover, Schneider also
requested and received a jury instruction on the defenses of both good faith generally and good

24

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 25 of 39

faith reliance on counsel’s advice. Finally, Schneider also presented evidence that Skillem relied
on the “Spooner Report,” which he claimed showed that gold could be found in Nevada.
Accordingly, the district court correctly denied Claim 7 because it was directly refuted by the
record, and no COA will issue as to the claim. See Tejada, 941 F.2d at 1559.
Claim 8
Claim 8(a)

•

In his Claim 8(a), Skillem argued that Schneider had been ineffective for failing to object
to the district court’s recess instruction. He argued that this deficiency on Schneider’s behalf
prejudiced his case because: (1) he could not prepare to adequately respond to the government’s
arguments; (2) he could not adequately present evidence of Nelson’s responsibility for all
criminal conduct; (3) he could not discuss with Schneider his upcoming testimony about
Nelson’s responsibility and evidence of continued mining efforts in Nevada; and (4) he could not
discuss with Schneider the failure to call Margaret Clifton, Michael Clifton, and Wunderlich as
witnesses.
, The district court denied Skillem’s Claim 8(a), noting that this Court already had visited
the matter of limiting Skillem’s discussions with Schneider and had concluded that Skillem
suffered no constitutional deprivation of his right to counsel. Accordingly, “[a]s the Eleventh
Circuit ultimately found that counsel’s action led to no constitutional deprivation, Skillem cannot
meet the Strickland prejudice prong by showing that he was prejudiced as a result of counsel’s
performance.”
Here, reasonable jurists would not debate the district court’s denial of Claim 8(a). See
Slack, 529 U.S. at 484. Skillem argued that Schneider was ineffective for failing to object to the
court’s recess instruction, as it deprived him of his Sixth Amendment right to counsel. However,

25

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 26 of 39

as we previously concluded in Skillem’s direct appeal, the recess instruction did not violate
Skillem s Sixth Amendment right. Thus, any objection by Schneider to the contrary would have
been meritless, and Schneider, consequently, was not ineffective for failing to raise such an
objection. See Bolender, 16 F.3d at 1573. Accordingly, no COA will issue as to Claim 8(a).
Claim 8(b)
In his Claim 8(b), Skillem argued that Schneider had been ineffective for failing to object
to the district court’s request that Skillem leave the courtroom for a period of time during the
lunch break on the eleventh day of his trial. The district court denied the claim, finding that,
even if Skillem should have remained in the courtroom, he had not alleged anti could not show

any prejudice related to his absence from the courtroom for the short period in question.
Generally,

“the

Fed. R Crim. P. 43(a)(2).

defendant

.must

be

present

at... every

trial

stage.”

However, “[n]ot every violation of Rule 43(a) requires reversal.”

United States v. Odoni, 782 F,3d 1226, 1233 (11th Or: 2015) (citation omitted). Violations of
Rule 43(a) are reviewed for harmless error, looking to whether the defendant was prejudiced by
the violation.

Id; Rogers v. United States, 422 U.S. 35, 40 (1975) (“[A] violation of

Rule 43 may in some circumstances be harmless error[.]”
Reasonable jurists would not debate the district court’s denial of Claim 8(b) because
Skillem failed to allege how any error by Schneider in failing to object to the district court’s
request that Skillem leave the courtroom during die lunch break on the eleventh day of trial
prejudiced his case. See Slack, 529 U.S. at 484; Strickland, 466 U.S. at 697. As such, the district
court did not err in denying the conclusory claim. See Tejada, 941 F.2d at 1559. Moreover, to
the extent that Skillem attempted to attribute the prejudice raised in his Claim 8(a) to this claim,
he still failed to establish that his case had been prejudiced by the discussion the attorneys and

26

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 27 of 39

the trial court had during the lunch break, as it did not concern or affect his testimony or
Scheider’s decision not to call Margaret Clifton, Michael Clifton, or Wunderlich as witnesses.
Further, the conversation the attorneys and the trial court had during the lunch break in Skillem’s
absence did not affect any testimony presented at trial, because it merely served to clarify that
Lewis would not be testifying about any conversation with United Kingdom investigators, as
such a conversation did not occur. Any Rule 43(a) error in Skillem’s case was harmless, and
Schneider was not ineffective in failing to argue to the contrary. See Odoni, 782 F.3d at 1233;
Boldender, 16 F.3d at 1573. Thus, no COA will issue as to Claim 8(b).
Claim 9
In his Claim 9, Skillem argued that Schneider was ineffective for failing to call Margaret
Clifton, Michael Clifton, and Wunderlich as witnesses during his trial. He argued that the
witnesses’ testimonies would have spoken to Nelson’s lies, frauds, and misrepresentations and to
die fact that Skillem made complete disclosures to and at all times acted on the advice of Lewis.
In support of Claim 9, Skillem attached affidavits from each of the proposed witnesses to his
§ 2255 motion. Margaret Clifton, Skillem’s ex-wife and an employee of Own Gold, stated that
Skillem demonstrated sound ethics and character, that he relied on his“fully informed” counsel’s
advice, and that Nelson was the only individual who committed fraud through Own Gold.
Michael Clifton, a Director of Own Gold, similarly stated that Skillem relied on Nelson to
operate Own Gold, on the Spooner Report for the valuation of Own Gold’s mining properties
and claims, and on Lewis’s legal advice that Skillem was not responsible for Own Gold because
he was not an Officer, Director, or Manager of the company. Michael Clifton also stated that he
knew Skillem to be ethical, fair, honest, and of good character. Finally, Wunderlich, a Director
and the President of Own Gold, stated that Nelson made misrepresentations and was responsible

27

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 28 of 39

for the Own Gold fraud and that Skillem had integrity and a good character. All three
individuals also indicated that they were at the courthouse and prepared to testify on Skillem’s
behalf during the trial, but that Schneider did not call them as witnesses.
The district court denied the claim, noting that counsel’s decision whether to call a
witness is a strategic one, and that Skillem had not shown that the decision not to call the
identified witnesses was patently unreasonable. The court also found that Skillem’s trial was not
prejudiced by Schneider’s failure to call the witnesses because their testimony would have been
cumulative to the testimonies provided by Lewis and Skillem.
“Which witnesses, if any, to call, and when to call them, is the epitome of a strategic

decision, and it is one that we will seldom, if ever, second guess.” Conklin v. Schofield, 366 F.3d
1191, 1204 (11th Cir. 2004). Therefore, “[ejven if counsel’s decision [to not call a certain
witness] appears to have been unwise in retrospect, the decision will be held to have been
ineffective assistance only if it was so patently unreasonable that no competent attorney would
have chosen it” Dingle v. Sec’y Dep’t of Corr., 480 F.3d 1092, 1099 (11th Cir. 2007)
(quotations omitted).
Here, reasonable jurists would not debate the district court’s denial of Claim 9. See
Slack, 529 U.S. at 484. Schneider’s decision not to call Margaret Clifton, Michael Clifton, and
Wunderlich as witnesses during Skillem’s trial is the type of strategic decision that we will
seldom second guess. See Conklin, 366 F.3d at 1204. Moreover, although Skillem asserts that
these proposed witnesses could have aided his defense, he has failed to demonstrate that
Schneider’s strategy was patently unreasonable, especially considering that their proposed
testimonies would have been cumulative to the testimony already submitted to the jury.
Specifically, Skillem and Lewis testified to the fact that Nelson was the individual responsible

28

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 29 of 39

for the management of and, consequently, fraud by Own Gold, and that Skillem had been acting
based on Lewis’s advice at all times. The jury considered this information and still found
Skillem guilty on Counts 1-10. Thus, Skillem failed to establish that his case was prejudiced by
Schneider’s decision not to present that same testimonial evidence through Margaret Clifton,
Michael Clifton, and Wunderlich. See Strickland, 466 U.S. at 694. As such, no COA will issue
as to Claim 9.
Claim 10
In his Claim 10, Skillem argued that Schneider had been ineffective fbr failing to call an
expert witness “who could have rebutted the government’s witness Chatterton with regard to the
methodology of Chatterton’s assay of the Nevada claims.” In support, he argued only that the
government’s assay evidence was flawed and that “[tjhis evidence was available to Atty.
Schneider but unused.” The district court denied Claim 10 as “too vague to show entitlement to
relief,” because Skillem failed to identify any expert witness that could have rebutted
Chatterton’s testimony or to present evidence showing that a prospective witness would have
testified in his favor.
Here, reasonable jurists would not debate the district court’s denial of Skillem’s Claim 10
because the claim was conclusory and unsupported by specific facts or arguments. See Tejada,
941 F.2d at 1559. Notably, Skillem did not identify any expert witness that Schneider should
have called as a witness, and he did not specify how Chatterton’s methodology or opinion was
“flawed.” Moreover, as previously noted, “which witnesses, if any, to call, and when to call
them, is the epitome of a strategic decision” that we will seldom second guess. See Conklin, 366
F.3d at 1204. Accordingly, Skillem failed to establish that Schneider acted deficiently or that
any deficiency prejudiced his case, and no COA will issue as to Claim 10.

29

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 30 of 39

Claim 11
In his Claim 11, Skillem argued that “Schneider failed to prepare witness Edward Lewis,
resulting in Lewis not recalling a critical part of testimony regarding a negative assay.” In
support, Skillem attached an email from Lewis, sent three years after Skillem’s trial, in which
Lewis contradicts his testimony and states that he remembered a “discussion of Q an assay report
that on its face was unfavorable as it related to Nevada.” However, Lewis’s email also
emphasized that he “continually insisted that Nevada was irrelevant to the company’s current
activities and my entire focus was on Montana.”
The district court denied Claim 11 because Skillem could not show that he was

prejudiced by .Schneider’s performance in preparing Lewis for testimony because Lewis
maintained, as he did throughout his trial testimony, that Nevada was of no importance to him
and he only focused on Own Gold’s Montana mining operation. Further, the court found that
there were other key pieces of information that Lewis did not have that demonstrated that he had
not been informed fully in advising .Skillem concerning Own Gold’s operations. .The. court also
noted in detail that Skillem had not be able, post-trial, to rehabilitate Lewis’s testimony in those
important respects.
Reasonable jurists would not debate the district court’s denial of Claim 11, See Slack,
529 U.S. at 484. Notwithstanding any prejudice determination by the district court, Skillem
made no specific allegation concerning how Schneider prepared Lewis or how he should have
prepared Lewis. Rather, the entirety of his Claim 11 consists of the assertion that “Schneider
failed to prepare witness Edward Lewis, resulting in Lewis not recalling a critical part of
testimony regarding a negative assay.” Thus, the claim is conclusoiy and fails to establish that

30

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 31 of 39

Schneider was deficient or offered ineffective assistance of counsel. See Tejada, 941 F.2d
at 1559.
Even so, reasonable jurists also would not debate the district court’s determination that
Skillem failed to establish that his case had been prejudiced by Schneider’s alleged deficiency.
Even if Schneider had prepared Lewis to testify that he remembered discussing a negative assay
concerning the Nevada mine, Lewis maintains now, as he did during Skillem’s trial, that the
Nevada mine did not matter. Thus, Skillem failed to establish that the proposed change in
Lewis’s testimony would have changed the outcome of his trial. See Strickland, 466 U.S. at 694.
Accordingly, no COA will issue as to Claim 11.
Claim 12
In his Claim 12, Skillem argued that Schneider was ineffective for entering into a IDA
with Nelson’s defense team on his behalf without permission and, consequently, for failing to
properly present his chosen defense that Nelson was the responsible party for Own Gold’s
mismanagement and offenses. In support, Skillem alleged that “from the date of the first
meeting and up until the day before trial,” Schneider led him to believe that his defense “would
be based on disclosing complete facts regarding [Nelson’s] failures, lies, frauds, and
responsibilities for [] Own Gold.” He stated that his defense was that he “tried, within the limits
set by [his] attorneys and by corporate law, to contain and control Nelson despite his obstructions
for the good of the company and all its customers and shareholders but ultimately could not.”
Skillem further alleged that the day before his trial, Schneider “unilaterally” decided not
to present key information about Nelson to the jury. He further stated that he learned that
Schneider decided this based on the JDA he entered with Nelson’s defense team without
Skillem’s approval. Skillem argued that Schneider also told him that Schneider had to “put

31

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 32 of 39

[Skillem] in the middle of this things,” and that “to bring up Nelson’s malfeasance in trial would
violate Nelson’s constitutional rights under the parties’ [JDA].”
The government responded to Skillem’s Claim 12 with an affidavit from Schneider.
Therein, Schneider attested that he met with Skillem almost every Sunday morning and spent
“countless hours reviewing emails, discussing witnesses and strategies” after Skillem was
charged. He stated that a problem in Skillem’s chosen defense was that, although Skillem was
labeled a consultant, he was “paid a great deal of money on each sale of gold” and was involved
in almost every decision made by the company. Schneider also attested that he told Skillem
“from the outset. . . that his only possible defense was that he relied.in good faith on the advice

of his attorney.” He stated that Skillem’s direct examination necessarily had to bring Skillem
into the business—rather than distance him from it—because, in order to present a defense of
good faith reliance on the advice of counsel, “we had to show [] Lewis’s knowledge of the
events, Lewis’s advice, and Skillem’s response and reliance on that advice.” Schneider also
noted that the evidence presented at trial for the defense was “double edged” because, although it
“told the story of Nelson’s mismanagement and incompetence, it also told the story of Skillem’ s
involvement in the decisions that the company were making.” Finally, Schneider explained that,
although he did not believe that any JDA was ever executed, the only JDA discussed included
only Cassim and Camargo, not Nelson, because Schneider did not trust Nelson to go to trial
rather than plead guilty and Schneider wanted to have the option of blaming Nelson at trial for
the failure of the company.
The district court denied Claim 12. In doing so, it made the factual finding that “there
was never a [JDA] between Skillem and Nelson’s defense teams.” It also found that Schneider’s
well-reasoned choice of defense strategy was entitled to deference. The court also determined

32

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 33 of 39

that nothing about Schneider’s presentation and mastery of the record in Skillem’s case
suggested that he was not prepared and committed to Skillem’s defense.
Reasonable jurists would not debate the district court’s denial of Claim 12. See Slack,
529 U.S. at 484. We are bound by the district court’s factual determination that Schneider did
not enter into a JDA with Nelson’s defense team because Skillem has not refuted the finding and
the record otherwise does not contain any indication that the finding was clearly erroneous. See
McGriff 338 F.3d at 1238. As such, because Skillem’s Claim 12 was dependent on his
argument that Schneider improperly entered into a JDA with Nelson’s defense team, the claim is
meritless. See Tejada, 941 F.2d at 1559. Nevertheless, the district court did not err in its
determination that Schneider was not deficient in his decision to avoid focusing Skillem s
defense on Nelson’s behavior, as the record indicates that Schneider thoroughly prepared for
Skillem’s defense and considered the “double edged” nature of focusing on Nelson’s
mismanagftment and incompetence. Accordingly, Schneider’s defense strategy was not so
seriously erroneous that he was not functioning as the “counsel” guaranteed by the Sixth
Amendment, arid no COA will issue as to Claim 12. See Strickland, 466 U.S. at 687.
Claim 13
In his Claim 13, Skillem argued that Schneider had been ineffective for failing to move
for a severance of his trial from Nelson’s trial. He argued that: (I) the joint trial prejudiced his
ability to present a complete defense to the charges in the indictment; (2) Nelson would have
exculpated him in a separate trial but would not testify in a joint trial; and (3) “the ‘spill over’
effect of Nelson’s inculpatory conduct may have prevented the jury from sifting through the
evidence to make an individual determination as to [Skillem’s] guilt”

33

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 34 of 39

The district court denied Claim 13, finding that it would not have granted a motion to
sever Skillem s trial from Nelson’s trial, and “counsel is not ineffective in deciding to forgo a
motion likely to fail.” The court also found that Skillem had failed show prejudice, as the trial
court instructed the jury to consider each offense and defendant separately and juries are
presumed to be able to compartmentalize evidence.
It is preferable for persons who are charged together to also be tried together, particularly
in conspiracy cases.

United States v. Francis, 131 F.3d 1452, 1459 (11th Cir. 1997). In

considering a motion to sever, the district court must determine whether the prejudice inherent in
a joint trial outweighs the public’s interest injudicial economy. Id. To prevail on such a claim a
defendant carries the heavy burden of showing that the joint trial prejudiced his defense to the
extent that the juty was unable to make an individualized determination of guilt as to each
defendant. The defendant must show that the prejudice was specific and compelling. Id
“A defendant does not suffer compelling prejudice, sufficient to mandate a severance,
simply because much of the evidence at trial is applicable only to co-defendants.” United States
v. Schlei, 122 F.3d 944, 984 (11th Cir. 1997). A defendant satisfies the compelling prejudice
requirement by showing that the jury “was unable to sift through the evidence and make an
individualized determination as to each defendant.” Id (quotations omitted). However, a court
guards against any such potential prejudice by instructing the jury that “[ejach offense, and the
evidence pertaining to it, should be considered separately” and that “each defendant should be
considered separately and individually ” Id Moreover, “the strong presumption is that jurors
are able to compartmentalize evidence by respecting limiting instructions specifying the
defendants against whom the evidence may be considered.” United States v. Blankenship, 382
F.3d 1110,1123 (11th Cir. 2004).

34

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 35 of 39

The assertion of mutually antagonistic defenses may satisfy the test for compelling
prejudice. United States v. Perez-Garcia, 904 F.2d 1534, 1547 (11th Cir. 1990). However, to
warrant severance, defenses must be “antagonistic to the point of being irreconcilable or
mutually exclusive.” Id.
Here, reasonable jurists would not debate the district court’s denial of Claim 13 because
Skillem failed to establish that he had been prejudiced by Schneider’s failure to move for a
severance from Nelson’s trial. See Slack, 529 U.S. at 484; Strickland, 466 U.S. at 697. In giving
its instructions to the jury in Skillem’s case, the trial court cautioned the jury to (1) consider each
crime and the evidence relating to it separately, and (2) consider the case of each codefendant
separately and individually. That precaution served to guard against any potential compelling
prejudice that would have warranted a severance from Nelson’s trial. See Schlei, 122 F.3d
at 984. For that reason, and because Skillem has not presented any argument to rebut the strong
presumption that the jurors in his case were able to compartmentalize evidence by respecting the
trial court’s limiting instruction, Skillem failed to establish that he would have been entitled to a
severance of his trial from Nelson’s. See Blankenship, 382 F.3d at 1123. Moreover, Skillem’s
argument that he suffered compelling prejudice sufficient to warrant a severance due to his
inability to present a complete defense to the charges in the indictment also fails because he has
not demonstrated that any defense he wished to raise was irreconcilable with or mutually
exclusive to Nelson’s chosen defense. See Perez-Garcia, 904 F.2d at 1547. Thus, because
Skillem would not have been entitled to a severance, Schneider was not ineffective for failing to
argue to the contrary, and no COA will issue as to Claim 13. See Bolender, 16 F.3d at 1573.

35

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 36 of 39

Claim 14
In his Claim 14, Skillem argued that Schneider had been ineffective for failing to argue
on appeal that the district court erroneously applied an organizer or leader enhancement and
erroneously refused to apply an acceptance-of-responsibility reduction to his guideline sentence
calculations. The district court found that Skillem had waived,his. Claim 14 because he provided
no argument or support for why the adjustments were not correctly applied to him. Nonetheless,
the court alternatively found that Skillem had failed to show that he was. prejudiced by any
ineffective assistance on Schneider’s behalf because (1) the evidence at trial demonstrated that
Skillem qualified for the organizer or leader enhancement to his sentence, and (2) Skillem was

not entitled to a reduction for acceptance of responsibility because he had put the government to
its burden of proof at trial and persisted in his innocence past the trial.

i •'

“A district court’s enhancement of a defendant’s offense level based on his role as an
organizer or leader is a finding of fact reviewed for clear error.” United States v. Rendon, 354
F.3d 1320, 1331 (11th Cir. 2003).

Similarly, we review the district court’s denial of an

acceptance-of-responsibility reduction under U.S.S.G. § 3E1.1 for clear error. United States v.
Tejas, 868 F.3d 1242,1247 (11th Cir. 2017). A factual finding at sentencing is clearly erroneous
when, “although there is evidence to support it, the reviewing court on the entire evidence is left
with the definite and firm conviction that a mistake has been committed.” United States v.
Barrington, 648 F.3d 1178, 1195 (11th Cir. 2011) (quotations omitted).
The Sentencing Guidelines provide that a four-level enhancement may be applied if “the
defendant was an organizer or leader of a criminal activity that involved five or more participants
or was otherwise extensive.” U.S.S.G. § 3Bl.l(a). In light of the use of the disjunctive in
§ 3Bl.l(a), we have held that the four-level enhancement may be applied even if the defendant’s

36

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 37 of 39

criminal activity did not involve five or more people, so long as it was “otherwise extensive.”
United States v. Hall, 996 F.2d 284, 287 (11th Cir. 1993). In Hall, this Court upheld a
§3Bl.l(a) pnhanr.PTnp.nt based on the district court’s alternative finding that the fraudulent
scheme, which brought in over $200,000, was “otherwise extensive.” Id.
In determining whether a § 3Bl.l(a) enhancement applies, the district court should
consider: “(1) exercise of decision-making authority, (2) nature of participation in the
commission of the offense, (3) recruitment of accomplices, (4) claimed right to a larger share of
the fruits of the crime, (5) degree of participation in planning or organizing the offense,
(6) nature and scope of the illegal activity, and (7) degree of control and authority exercised over
others.” United States v. Rendon, 354 F.3d 1320,1331-32 (11th Cir. 2003) (quotations omitted).
The defendant does not have to be the “sole leader or kingpin of the conspiracy in order to be
considered an organizer or leader within the meaning of the Guidelines.” Id at 1332.
A two-level reduction applies if the defendant “clearly demonstrates acceptance of
responsibility for his offense.” U.S.S.G. § 3El.l(a). The Guidelines commentary provides that
“[tjhis adjustment is not intended to apply to a defendant who puts the government to its burden
of proof at trial by denying the essential factual elements of guilt, is convicted, and only then
admits guilt and expresses remorse.” U.S.S.G. § 3El.l(a), comment, (n.2). It further states that,
if a defendant proceeds to trial, acceptance-of-responsibility reductions should only occur in
“rare situations,” such as “where a defendant goes to trial to assert and preserve issues that do not
relate to factual guilt.” Id. The district court is in an unique position to evaluate whether a
defendant has accepted responsibility for his acts, and we will not set aside such a determination
“unless the facts in the record clearly establish that the defendant has accepted responsibility.”
United States v. Moriarty, 429 F.3d 1012,1022-23 (11th Cir. 2005).

37

USCA11 Case: 20-13380

Date Fifed: 04/16/2021

Page: 38 of 39

As an initial matter, Skillem’s Claim 14 is arguably conclusory, and due to be denied on
that basis, because Skillem failed to support the claim in his § 2255 motion with specific facts or
arguments. See Tejada, 941 F.2d at 1559. However, because a review of the record clearly
reveals the basis for the claim, and because Skillem is entitled to a liberal interpretation of his
pleadings as a pro se appellant, we will address the merits of the claim. See id.; Hughes v. Lott,
350 F.3d 1157,1160 (11th Cir. 2003) (“Pro se pleadings are held to a less stringent standard than
pleadings drafted by attorneys and will, therefore, be liberally construed.”) (quotations omitted).
However, even turning to the merits of Claim 14, reasonable jurists would not debate the district
court’s denial of the claim because Skillem failed to establish that any alleged error by Schneider

in failing to raise the sentencing errors on direct appeal prejudiced his case. See Slack,
529 U.S. at 484; Strickland, 466 U.S. at 694.
First, a review of the record evidence does not compel a definite and firm conviction that
the trial court erred in finding that Skillem was entitled to a leader or organizer enhancement to
his guideline sentencing calculations. See Barrington, 648 F.3d at 1195. The evidence presented
at trial established that Skillem and Nelson ran Own Gold and directed its employees and
marketing partners to fraudulently sell gold over a period of more than two years, making $7.3
million in fraudulent sales. Thus, the evidence supported the sentencing court’s finding that
Skillem had a leadership role in a criminal activity that was “otherwise extensive.” See Hall,
996 F.2d at 287. As such, any argument to die contrary on direct appeal would have been
meritless, and Skillem’s appeal was not prejudiced by Schneider’s failure to raise die meridess
argument. See Bolender, 16 F.3d at 1573.
Second, Skillem was not entided to a sentence reduction for acceptance of responsibility
because (1) he put the government to its burden of proof at trial by denying the essential factual

38

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 39 of 39

elements of guilt, was convicted, and still maintained his innocence, and (2) the facts in the
record do not clearly establish that he accepted responsibility.

See U.S.S.G. §3El.l(a),

comment (n.2); Moriarty, 429 F.3d at 1022-23. Thus, any argument to the contrary would have
been meritless, and Schneider’s failure to raise the argument did not constitute ineffective
assistance. See Bolender, 16 F.3d at 1573. Accordingly, because Skillem failed to establish that
Schneider was ineffective in failing to raise the identified sentencing issues on direct appeal, no
COA will issue as to Claim 14.
As such, Skillem’s motions for a COA are DENIED because he has failed to
make a substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(cX2).

39

USCA11 Case: 20-13380

Date Filed: 04/16/2021

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Cleric of Court

For rules and forms visit
www.cal 1 .uscourts.gov

April 16,2021
Clerk - Middle District of Florida
U.S. District Court
801 N FLORIDA AVE
TAMPA, FL 33602-3849
Appeal Number: 20-13380-H
Case Style: Michael Skillem v. USA

(

District Court Docket No: 8:19-cv-00896-MSS-AEP
Secondary Case Number: 8:14-cr-00058-MSS-AEP-3
The enclosed copy of this Court's order denying the application for a Certificate of
Appealability is issued as the mandate of this court See 11th Cir. R. 41-4. Counsel and pro se
parties are advised that pursuant to 11th Cir. R, 27-2, "a motion to reconsider, vacate, or modify
an order must be filed within 21 days of the entry of such order. No additional time shall be
allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Gerald B. Frost, H
Phone#: (404) 335-6182
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

A

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 1 of 30 PagelD 530

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION
MICHAEL SKILLERN,
Petitioner,
Case No. 8:19-cv-896-T-35AEP
v.
Crim. Case No. 8:14-cr-58-T-35AEP
UNITED STATES OF AMERICA,
Respondent.

ORDER
This cause is before the Court on Petitioner Michael Skillern’s pro se motion to
vacate, filed under 28 U.S.C. § 2255 (Civ. Doc. 1), motion for summary judgment, motion
for judgment on the pleading, and expedited motion for review and ruling (Civ. Docs. 16
17, 19). Upon consideration of the motion to vacate, the United States’ response in
opposition (Civ. Doc. 13), and Skillern’s reply (Civ. Doc. 15) and in accordance with the
Rules Governing Section 2255 Proceedings in the United States District Courts, it is
ORDERED that the motion to vacate is DENIED and the remaining motions are DENIED
as moot.
PROCEDURAL HISTORY
Skillern and three co-defendants, Jon Craig Nelson, Naadir Cassim, and Adriana
Maria Camargo, were indicted in case number 8:14-cr-58-T-35AEP. (Cr. Doc. 1) Skillern
was convicted after a jury trial of one count of conspiracy to commit mail and wire fraud;
one count of conspiracy to commit money laundering; four counts of mail fraud; and four
counts of wire fraud. (Cr. Doc. 374) He was sentenced to 120 months in prison. (Cr. Doc.
374) Skillern filed a direct appeal, arguing that his right to counsel was violated because

1

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 2 of 30 PagelD 531

he was restricted from speaking to his lawyer about his testimony during an overnight
recess; that the United States presented insufficient evidence of mail fraud; and that the
United States presented insufficient evidence to rebut his defense of good faith reliance
on the advice of counsel. The Eleventh Circuit Court of Appeals rejected Skillern’s
challenges and affirmed the convictions. United States v. Nelson, 884 F.3d 1103 (11th
Cir. 2018).
FACTUAL BACKGROUND
Skillern was involved in a business called Own Gold. The Eleventh Circuit
summarized the facts that led to the charges in this case as follows in Nelson, 884 F.3d
at 1105 (emphasis in original):
In 2011, Skillern and [co-defendant] Nelson started a company called Own
Gold LLC for the purpose of mining, processing, and selling gold. Own
Gold’s website and marketing materials represented that it was a “gold
producer” with mining claims worth some $81 billion. For the next two years
Own Gold used a telemarketing firm to execute contracts with hundreds of
people who believed that they were actually buying gold. Those contracts
specified the amounts of gold purchased and prices, and represented that
customers could retrieve their gold ore “at any time after the execution and
payment of consideration” by “appealing] in person” at the mining site.
Otherwise, Own Gold had 360 days to deliver the gold; if it failed to do so,
it would refund the purchase price. All told, Own Gold accepted 441 orders
and collected more than $7.3 million from customers.
As it turns out, Own Gold’s representations about its gold production were,
well, misrepresentations. From its inception in 2011 until it stopped
executing sales contracts with customers in 2014, Own Gold appears to
have produced less than six ounces of gold from its own mining operations.
In light of its near-total failure to produce any gold from its own mines, Own
Gold resorted to trying to fulfill customers’ orders by purchasing gold from
third parties. Even so, despite taking orders for 5,912 ounces of gold and
accepting more than $7.3 million from its 351 customers, Own Gold
ultimately delivered a mere 150 ounces—valued at $241,000—to 20
customers. Own Gold refunded only $35,022 to four customers; none of the
other orders was either fulfilled or refunded. Meanwhile, Skillern collected
approximately $488,000, Nelson bagged about $300,000, and Own Gold’s
telemarketing firm netted a whopping $5.1 million over a two-year period.
2

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 3 of 30 PagelD 532

STANDARDS OF REVIEW
I.

Motion To Vacate Under § 2255
On collateral review the petitioner bears the burden of proof and persuasion on

each and every aspect of his claim, see In re Moore, 830 F.3d 1268, 1272 (11th Cir.
2016), which is “a significantly higher hurdle than would exist on direct appeal” under plain
error review, see United States v. Frady, 456 U.S. 152, 164-66 (1982). Therefore, if the
Court “cannot tell one way or the other” whether the claim is valid, then the petitioner has
failed to carry his burden. Moore, 830 F.3d at 1273; cf. United States v. Rodriguez, 398
F.3d 1291, 1300 (11th Cir. 2005) (under plain error review, “the burden truly is on the
defendant to show that the error actually did make a difference. . . . Where errors could
have cut either way and uncertainty exists, the burden is the decisive factor in the third
prong of the plain error test, and the burden is on the defendant.”).
II.

Ineffective Assistance of Counsel
Skillern asserts ineffective assistance of counsel. To succeed on an ineffective

assistance claim, a petitioner must show that (1) his counsel’s performance was deficient,
and (2) the deficient performance prejudiced the defense. Strickland v. Washington, 466
U.S. 668, 687 (1984). To establish deficient performance, a petitioner must show that “no
competent counsel would have taken the action that his counsel did take.” Chandler v.
United States, 218 F.3d 1305, 1315 (11th Cir. 2000). However, a court “should recognize
that counsel is strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment.” Strickland, 466
U.S. at 690; see also White v. Singletary, 972 F.2d 1218, 1220 (11th Cir. 1992) (stating
that, in assessing counsel’s performance, a court ”ask[s] only whether some reasonable
3

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 4 of 30 PagelD 533

lawyer at the trial could have acted, in the circumstances, as defense counsel acted at
trial.”).
To show prejudice, a petitioner must demonstrate “a reasonable probability that
but for counsel’s unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to undermine confidence in
the outcome.” Strickland, 466 U.S. at 694. If the petitioner fails to establish either of
Strickland’s two prongs, the claim fails. Maharaj v. Sec’y, Dep’t of Corn, 432 F.3d 1292
1319 (11th Cir. 2005).
DISCUSSION

/

Ground One1
Skillern claims that trial counsel was ineffective in not moving to dismiss the
indictment on the basis that it charged crimes that occurred outside the territorial
jurisdiction of the United States. He also asserts that counsel was ineffective in not
requesting a voir dire question and jury instruction about the presumption against
extraterritoriality and in not objecting to the inclusion of foreign losses at sentencing.
As the United States convincingly argues, counsel had no basis to make the
\

objections proposed by Skillern. “Absent clearly expressed congressional intention to the
contrary, federal laws will be construed to have only domestic application.” RJR Nabisco,
Inc. v. European Cmty., 136 S.Ct. 2090, 2100 (2016). In determining whether a statute
has been applied extraterritorially, a court will first “ask whether the presumption against
extraterritoriality has been rebutted—that is, whether the statute gives a clear, affirmative

1 Due to the overlapping nature of several of Skillern’s claims and the facts raised in support of those claims,
for purposes of clarity, the Court has renumbered several of Skillern’s claims in the order in which they were
addressed in the Response.

4

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 5 of 30 PagelD 534

indication that it applies extraterritorially.” Id. at 2101. “If the statute is not extraterritorial,
then at the second step we determine whether the case involves a domestic application
of the statute, and we do this by looking to the statute’s ‘focus.’ If the conduct relevant to
the statute’s focus occurred in the United States, then the case involves a permissible
domestic application even if other conduct occurred abroad; but if the conduct relevant to
the focus occurred in a foreign country, then the case involves an impermissible
extraterritorial application regardless of any other conduct that occurred in U.S. territory.”
Id.
First, the money laundering statute under which Skillern was charged applies
extraterritorially if “the conduct is by a United States citizen” and the transaction at issue
exceeded $10,000.00 18 U.S.C. § 1956(f). There is no disagreement that Skillern is a
United States citizen. Further, the transactions at issue in the indictment total well over
$10,000. (Cr. Doc. 1 at 4, 22-23) Accordingly, under the first step of the RJR Nabisco test,
the charge of conspiracy to commit money laundering was not susceptible to challenge
on the basis proposed by Skillern.
As to the charges of mail and wire fraud, and conspiracy to commit mail and wire
fraud, binding authority has not determined whether those statutes have extraterritorial
application. However, an assessment under the second step of the RJR Nabisco test
shows that the “conduct relevant to the statute[s’] focus occurred in the United States.”
RJR Nabisco, 136 S.Ct. at 2101.
The “focus” of the mail and wire fraud statutes “is upon the misuse of the
instrumentality of communication.” United States v. Driver, 692 F. App’x 448,449 (9th Cir.
2017) (quoting United States v. Garlick, 240 F.3d 789, 792 (9th Cir. 2001); Bascunan v.

5

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 6 of 30 PagelD 535

Elsaca, 927 F.3d 108, 122 & nn. 18 & 19 (2d Cir. 2019). Skillern was charged with
fraudulent domestic mailings through FedEx from Orlando, Florida, to other locations in
Florida as well as internationally; fraudulent use of interstate wires to send funds to
Orlando and a conspiracy that included numerous domestic mailings. (Cr. Doc. 1 at IQ21, 25, 27-28) Accordingly, the use of the instrumentalities of communication took place
in the United States. Therefore, the charges were “domestic application^]” of the mail
and wire fraud statutes. See RJR Nabisco, 136 S.Ct. at 2101. Accordingly, Skillern fails
to show that his counsel was deficient in not challenging the indictment on the basis
alleged. Nor does he show a reasonable probability that the outcome would have been
different had counsel moved to dismiss the charges.
Skillern contends that the rule of lenity should apply to limit the application of the
relevant statutes to his conduct. (Civ. Doc. 1 at 22-23) Skillern’s argument is misplaced.
That rule “is reserved for cases where, after seizing everything from which aid can be
derived, the court is left with an ambiguous statute.” United States v. Svete, 556 F.3d
1157, 1169 (11th Cir. 2009). Skillern fails to demonstrate that the statutes in question fall
under this limited category. Accordingly, Skillern is not entitled to relief on Ground One.
Ground Two
Skillern contends that trial counsel was ineffective during voir dire for failing to
preserve a challenge to the Court’s decision not to question the jury regarding the defense
of good faith reliance on the advice of counsel. Skillern has not shown that his attorney
was ineffective.

6

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 7 of 30 PagelD 536

Counsel requested that the Court ask the prospective jurors about whether or not
they agreed with legal concepts, including the defense of good faith reliance. Specifically,
counsel requested that the Court ask the following question (Cr. Doc. 206 at 20):
3. The law says that good faith reliance on the advice of an attorney is a
complete defense to the charges in the indictment. Evidence that a
defendant in good faith followed the advice of counsel would be inconsistent
with an unlawful intent to obtain money by fraudulent means as alleged in
the indictment. The law requires before this rule applies a defendant must
make a full and complete good faith report of all material facts to an attorney
the defendant considers competent, the defendant received the attorney
advice as to a specific course of conduct that was followed and the
defendant reasonably relied upon that advice in good faith. Does anyone
disagree with this law.
The United States objected to this question. (Cr. Doc. 206 at 24) After considering
all of the proposed questions, the Court declined to pose the question during voir dire.
However, the Court noted that the jurors would be instructed on the law and on their
obligation to follow the law regardless of whether they agreed with the law and “whether
anyone would not be able to meet that requirement.” (Cr. Doc. 431 at 5-6) As the Court
made clear that the jurors would be instructed on their obligation to follow the law
regardless of their agreement with it, Skillern fails to show that counsel performed
deficiently in failing to object to the Court’s rejection of his proposed question concerning
this very matter.
Nor has Skillern demonstrated that he was prejudiced by counsel’s performance,
as an objection would have been without merit. “[I]t is not an abuse of. . . discretion to
refuse to allow inquiries of jurors as to whether they can accept certain propositions of
law " United States v. Miller, 758 F.2d 570, 572 (11th Cir. 1985) (quotation omitted). Thus,
an objection to the court’s decision would have failed. “[Ojverall voir dire questioning,
coupled with the instructions given by the trial court at the close of the case, adequately
7

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 8 of 30 PagelD 537

protect[ ] [a defendant’s] right to be tried by a fair and impartial jury.” Id. at 573. Further,
a court has significant discretion in conducting voir dire, which extends to the decision
whether or not to submit suggested questions to the jury. United States v. Schlei, 122
F.3d 944, 994 (11th Cir. 1997).
As promised, the Court instructed the jury on the defense of good faith reliance on
advice of counsel and instructed the jury of their obligation to follow the law even if they
did not agree with the law. (Cr. Doc. 274 at 3, 38) It is presumed that the jurors complied
with the court’s instructions. United States v. Ramirez, 426 F.3d 1344, 1352 (11th Cir.
2005) (“A jury is presumed to follow the instructions given to it by the district judge.”);
Raulerson v. Wainwright, 753 F.2d 869, 876 (11th Cir. 1985) (“Jurors are presumed to
follow the law as they are instructed.”). Accordingly, even though Skillern’s proposed
question was not presented during voir dire, the instructions that were given protected
Skillern’s right to a fair trial.
Skillern has not met his burden of showing deficient performance and resulting
prejudice under Strickland. Accordingly, he fails to demonstrate entitlement to relief on
Ground Two.
Ground Three
Skillern argues that counsel was ineffective in failing to object to testimony of
Police Inspector Francisco Vazquez, an Officer of the Spanish National Police, regarding
a foreign wiretap. Skillern contends that counsel should have objected because the
United States did not show that the wiretap met the requirements of 18 U.S.C. § 2510 et
seq. Vazquez testified that, in his capacity working for the Spanish National Police, he
submitted an application to intercept telephone calls in Spain. (Cr. Doc. 431-2 at 24-26)

8

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 9 of 30 PagelD 538

The application was approved. (Cr. Doc. 431-2 at 26) The United States subsequently
introduced recordings of three intercepted calls. (Cr. Doc. 431-6 at 68-76, 90-94, 97-100)
These calls were between other co-defendants.
Skillern has not shown that counsel was ineffective in failing to object. The foreign
wiretap was not subject to statutory requirements of United States law. “When conducted
in this country, wiretaps by federal officials are largely governed by Title III of the Omnibus
Crime Control and Safe Streets Act of 1968, see U.S.C. §§ 2510-2520, which does not
apply outside the United States." United States v. Maturo, 982 F.2d 57, 60 (2d Cir. 1992);
see also United States v. Hawkins, 661 F.2d 436, 455-56 (5th Cir. 1981) (“[Tjhe general
rule is that the Fourth Amendment does not apply to arrests and searches made by
foreign authorities in their own country and in enforcement of foreign law.”); United States
v. Ramcharan, 2008 WL 170377 at *6 (S.D. Fla. Jan. 14, 2008) (“Title III does not apply
to electronic interceptions conducted by foreign authorities outside of the United States.”
(citing Maturo, 982 F.2d at 60 and United States v. Peterson, 812 F.2d 486, 492 (9th Cir.

1987))).
Further, there is no evidence to support the finding of either of the two exceptions
that apply to this rule. Those exceptions are present (1) if it is shown that United States
law enforcement agents substantially participated in the challenged search or controlled
the operation so that foreign law enforcement officials essentially acted as United States
agents; or (2) if the foreign officers’ conduct is so egregious that it “shocks the conscience”
of the United States court. See United States v. Rosenthal, 793 F.2d 1214, 1230-31 (11th
Cir. 1986); Hawkins, 661 F.2d at 456. To shock the conscience, “conduct must violate

9

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 10 of 30 PagelD 539

“fundamental international norms of decency[.]” United States v. Mitro, 880 F.2d 1480
1483-84 (1st Cir. 1989).
Based on the foregoing, the Court concludes that Skillern has failed to show either
that his counsel performed deficiently or that he was prejudiced as a result of counsel’s
conduct. Skillern is not entitled to relief on Ground Three.
Ground Four
Skillern asserts that trial counsel was ineffective in failing to argue for acquittal on
the mail fraud counts on the basis that the mailings were not were not inducements for
the sales transactions and thus were not part of the execution of the fraud scheme as
contemplated by the perpetrators. He further claims that his lawyer failed to preserve this
issue for de novo review on direct appeal. Skillern’s claim in this regard fails.
The Eleventh Circuit has held that “mailings are sufficiently a part of the execution
of a fraudulent scheme if they are used to lull the scheme’s victims into a false sense of
security that they are not being defrauded, thereby allowing the scheme to go
undetected.” United States v. Hill, 643 F.3d 807, 859 (11th Cir. 2011). “The mailing can
therefore, follow the achievement of the object of the fraud, since it may be essential ...
to avoid detection or lull the victim into complacency.” United States, v. Mills, 138 F.3d
928, 941 (11th Cir. 1998). In this scheme, the mailings at issue operated in precisely this
way as confirmed by the testimony of the exemplar victims. See Cr. Doc. 431-3 at 114
(Flynn: “I understood it to be a certificate in my benefit of ownership of 300 ounces of dore
gold.”); Doc. 431-4 at 172 (Sadler: “[Certificate indicated tjhat I was the owner of 56
ounces of troy gold.”). Consequently, Skillern’s counsel was not ineffective for not making
a demand for a judgment of acquittal on this ground, and for failing to preserve this

10

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 11 of 30 PagelD 540

meritless claim for de novo review on appeal. See United States v. Winfield, 960 F.2d
970, 974 (11th Cir. 1992) (counsel is not ineffective in failing to argue or preserve a
meritless issue). Accordingly, as Skillern has not met his burden under Strickland of
showing deficient performance of counsel and resulting prejudice, he is not entitled to
relief on Ground Four.
Ground Five
Skillern contends that counsel was ineffective in failing to argue for acquittal on the
wire fraud counts on the basis that the wires were internal to Own Gold, LLC and Shukr
and thus not part of the execution of the fraud scheme as against victims. Skillern ignores
that the wire fraud scheme alleged against him included wire transfers to victims.
Necessarily, the Government was required to introduce the end-of-the-line transfer to
show the benefit received by the fraudster. A scheme to defraud is “not complete, or
executed, until [the defendant] receive[s] his benefit from the transaction.” United States
v. Lemons, 941 F.2d 309, 315 (5th Cir. 1991). The wires to the victims were the
antepenultimate transactions in the wire fraud scheme; the wires between the
perpetrators, the penultimate transactions, with the withdrawal and dissipation of funds
by the fraudsters being the ultimate transactions. All of these actions were alleged and
proven at trial by the Government. Consequently, Skillern's counsel was not ineffective
for not raising this issue and for declining to preserve it for appeal. See Winfield, 960 F.2d
at 974. As Skillern has not met his burden under Strickland, he is not entitled to relief on
Ground Five.
Ground Six

11

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 12 of 30 PagelD 541

Skillern argues that trial counsel was ineffective in failing to argue that the jury
instructions for the mail fraud and wire fraud charges lessened the United States’ burden
of proof. Skillern contends that the instructions erroneously required that the mailing or
wire must be “meant to help carry out the fraud” rather than “for the purpose of executing
the scheme to defraud.” (Civ. Doc. 1 at 47)
The jury was instructed that the United States had to prove that Skillern used a
private or commercial interstate carrier “by depositing or causing to be deposited with the
carrier, something meant to help carry out the scheme to defraud.” (Cr. Doc. 274 at 22)
The jury was also instructed that the United States had to prove that Skillern “transmitted
or caused to be transmitted by wire some communication in interstate commerce to help
carry out the scheme to defraud.” (Cr. Doc. 274 at 25) These instructions track the
language contained in the Eleventh Circuit’s Pattern Criminal Jury Instructions 50.1 and
51, respectively.
Skillern fails to show that the language “meant to help carry out” differs in a
significant manner from the language “for the purpose of executing” or served to lessen
the United States’ burden. Cf. United States v. Hasson, 333 F.3d 1264, 1273 (11th Cir.
2003) (“An interstate wire transmission is ‘for the purpose of executing’ the scheme to
defraud if it is ‘incident to an essential part of the scheme’ or ‘a step in the plot.’” (quoting
Schmuck v. United States, 489 U.S. 705, 715 (1989))). The instructions provided
accurately informed the jury of the elements of the crimes that the United States was
required to prove. As United States convincingly argues, the instructions’ language
merely states the law in simpler terms that may be easier for a juror to understand than

12

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 13 of 30 PagelD 542

the statutory language. Accordingly, Skillern does not show that counsel performed
deficiently in not objecting to the jury instructions.
Further, Skillern fails to show any prejudice as a result of counsel’s performance
because he fails to show that any error in the instruction contributed to the verdict. Under
§ 2255, a conviction should be upheld even if there was an error in the jury instructions if
the defendant fails to show that the error “had a substantial and injurious effect or
influence in determining the jury’s verdict.” Ross v. United States, 289 F.3d 677,682 (11th
Cir. 2002) (citation omitted). There is simply no indication that anything would have been
different had the precise wording in the instructions been changed to track the language
of the statute precisely. Skillern’s claim is therefore purely speculative and fails to
establish that counsel was ineffective. In fact, the Eleventh Circuit expressly held on direct
appeal that the United States presented sufficient evidence to support the mail fraud
convictions. Nelson, 884 F.3d at 1110. Accordingly, Skillern has not demonstrated that
counsel was ineffective under Strickland. He is not entitled to relief on Ground Six.
Ground Seven
Skillern claims that trial counsel was ineffective in failing to properly argue or
preserve issues related to his defense that he acted in good faith on the advice of counsel
and the advice of an expert report concerning the gold allegedly found on the mining site.
These claims likewise fail. Counsel spent a great deal of his defensive strategy pressing
the claim that Skillern relied on the advice of counsel. He raised it in opening, closing and
in his demand for acquittal and for new trial. He demanded and received an instruction
on the defense both as to good faith generally and as to good faith reliance on counsel’s

13

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 14 of 30 PagelD 543
\

advice. (Doc. 274 at 37-38) Counsel also offered evidence that Skillern relied on the
“Spooner Report”, which he claimed showed that gold could be found in Nevada.
The problem was that the claims of the defense did not match the evidence. The
Government offered persuasive evidence that Skillern was aware of the fraud and that he
helped to perpetrate it. The Government secured evidence from Skillern that the Spooner
Report, which was dated June 2010, related to a different mining site than Own Gold’s
site and that Skillern revised the report to make it appear to refer to Own Gold’s site in
January 2010. Specifically, during the United States’ cross-examination of Skillern, the
following exchange took place (Doc. 431-10 at 94-97):
Q. And when you’re speaking of the Spooner Report - - I’m going to show
you Skillern’s Exhibit 69. This is the report to International Humanitarian
Federation; is that correct?
A. Yes.
Q. This is the version of the report that you first saw?
A. I believe so.
Q. And this is what first got you interested in the gold mining business you
testified, correct?
A. Yes.
Q. The date on this report is June 12 of 2010; is that right?
A. Yes.

Q. These could not have been claims that were associated with Own Gold
correct?
A. Not in 2010.

14

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 15 of 30 PagelD 544

Q. So despite the fact that this report is written about two entirely different
mining claims, you testified that you has this report altered to be headed
with Own Gold information; is that correct?
A. Yes.
Q. Looking at Skillern’s Exhibit 989, you, in fact, paid $264 for the editing of
this report, the report that we looked at in Skillern’s Exhibit 69-C; is that
right?
A. Yes.
Q. And that resulted in the report that we see in Skillern’s Exhibit 234-B; is
that correct?
A. Yes.
Q. And it indicates that it was written for Own Gold, LLC., correct?
A. Yes.
Q. It wasn’t written for Own Gold LLC, was it?
A. Not written for.

Q. Is this about Own Gold claims? Is any - - Scott Spooner did no new work
to produce this document, did he?
A. No.
Q. There was no new analysis done on the Big Bud Claims in Nevada to
produce this product, was there?
A. No.
Q. And yet, you put this out there as support for the idea that the Big Bud
Claims contained seven ounces per ton of gold in ore; is that correct?
A. Yes.
The jury also had the benefit of considering Skillern’s own testimony concerning
his reliance on counsel and his reliance on the Spooner Report. The jury was able to
assess his truthfulness. See United States v. Woodard, 459 F.3d 1078, 1087 (11th Cir.
15

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 16 of 30 PagelD 545

2006) (“[A] defendant’s testimony—if disbelieved by the jury—may be considered
substantive evidence of guilt.”).
Counsel did all that he could to assert this good faith defense: the evidence just
did not bear it out, and the jury rejected it. Skillern has not established that counsel was
ineffective or that he was prejudiced by counsel’s performance, as he must under
Strickland to obtain relief on a claim of ineffective assistance. Moreover, the Eleventh
Circuit concluded that the evidence was sufficient to support the jury’s verdict.
Consequently, Skillern is not entitled to relief on Ground Seven.
Ground Eight
Skillern claims that counsel was ineffective in failing to preserve an objection to the
Court’s instruction that he not discuss his testimony with counsel during the overnight
break following Skillern’s first day of testimony. The record shows that after the first day
of Skillern’s testimony, counsel asked the Court whether he could “speak to Mr. Skillern
about matters other than his testimony this evening . . . that may come up?” (Cr. Doc.
431-9 at 208) This restriction on Skillern’s discussion with his lawyer took place overnight
between Day 10 and 11 of trial. (Cr. Doc. 431-9 at 208-09) The Court granted this
request, informing counsel that they could discuss “anything about the proceeding and so
forth, who is coming, that’s fine, but just not his testimony or his impending testimony.”
(Cr. Doc. 431-9 at 209) Skillern claims that if his counsel had objected to this limitation on
i

discussing his testimony, the outcome of the trial would have been different.
Skillern argued on direct appeal that the limitation on his ability to consult with his
attorney during the overnight break deprived him of his Sixth Amendment right to counsel.
The Eleventh Circuit concluded that “because the trial record doesn’t indicate that either

16

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 17 of 30 PagelD 546

Skillern or his lawyer had any intention or desire to discuss his testimony during the
recess, Skillern can’t show that he was actually deprived of his right to counsel[.]” Nelson,
884 F.3d at 1107. Concluding that “the record was entirely devoid of any indication—in
any form—that Skillern or his attorney planned or wanted to confer about his testimony
during the recess,” the Eleventh Circuit determined that “Skillern hasn’t shown that he
was actually deprived of his Sixth Amendment right to counsel.” Id. at 1110. (emphasis in
original) The Eleventh Circuit therefore held that “in the circumstances of this case, the
district court committed no constitutional error.” Id. at 1104.
Skillern now argues he was prejudiced in several ways by this restriction. First, he
argues he could not adequately respond to the government’s arguments and he could not
adequately present evidence of Nelson’s responsibility for all criminal conduct. He
alleges that he tried to speak to Schneider during the overnight recess about “Michael
McDonnough’s continuing mining efforts in Nevada ... but [his lawyer] felt that may
encroach on the judge’s order.” (Civ. Doc. 1-2 at 1) Skillern also argues that he was not
able to discuss his upcoming testimony with his attorney, specifically, evidence of
Nelson’s responsibility, and evidence of continued mining efforts in Nevada. Skillern
ignores that he was still on the stand when the Court lifted the restriction and, thus, he
was able to speak to his lawyer about any topic, including his testimony regarding Nelson.
Skillern also ignores that he had months to prepare for his testimony before trial. Tellingly,
Skillern never claims that he was unsure about a line of questioning during the period in
which his consultation was restricted or that the absence of advice of counsel hindered
his testimony in any way.

17

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 18 of 30 PagelD 547

Rather, he principally complains that he could not discuss with his counsel the
failure to call certain witnesses, namely, Michael and Margaret Clifton and Lawrence
Wunderlich. But this contention is belied by the record. The Court specifically allowed
discussion about witnesses that might be called, permitting discussion “anything about
the proceeding and so forth, who is coming, that’s fine...”, and Skillern does not allege
that his lawyer would not discuss these individuals with him. Moreover, Skillern’s lawyer
announced at the start of Day 12 that he did not intend to call the Cliftons to the stand.
(Doc. 143-11 at 4) He similarly announced in the late afternoon on Day 12 that he did not
intend to call Wunderlich to the stand. (Doc. 143-11 at 181) All of these decisions were
made and announced long after the restriction on conferring with counsel had been lifted.
Skillern does not explain why he did not make his concerns known to counsel at those
opportunities.
In any event, the matter of limiting Skillern’s discussions with this attorney has
been visited by the Eleventh Circuit, which concluded that Skillern suffered no
constitutional deprivation of his right to counsel in this case. As the Eleventh Circuit
ultimately found that counsel’s action led to no constitutional deprivation, Skillern cannot
meet the Strickland prejudice prong by showing that he was prejudiced as a result of
counsel’s performance.
In light of the entirety of the evidence against Skillern, he simply has failed to
demonstrate a reasonable probability that the outcome of the trial would have been
different had he been permitted to speak with his counsel on one evening about the
identified matters. Accordingly, Skillern fails to show that his counsel was deficient in not

18

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 19 of 30 PagelD 548

objecting to the parameters placed on their discussions after the first day of Skillern’s
testimony, or that he was prejudiced as a result of counsel’s performance.
Skillern also argues that his counsel did not object to the Court’s asking Skillern to
leave the courtroom for a period of time while he was testifying. Of course, he was not
asked to leave the courtroom while he was testifying'. He was asked to leave at the
beginning of a lunchbreak while a legal issue was being discussed. He is correct that his
lawyer never objected. There was no need to object, and no matter affecting his testimony
was discussed during this approximate eight-minute sidebar outside the presence of the
jury. The only topic discussed during Skillern’s absence was a question raised by Mr.
Sands, Co-defendant Cassim’s counsel, concerning possible elicitation of impermissible
hearsay testimony from Skillern’s consulting lawyer, Mr. Lewis. Mr. Sands expressed
concern that Mr. Schneider, Skillern’s trial counsel, was going to ask Mr. Lewis to testify
about allegations of fraud communicated by British investigators to Mr. Lewis. Sands
/

believed those hearsay communications would unfairly prejudice Mr. Cassim. After limited
discussion, Mr. Schneider advised that no British official would return Mr. Lewis’s call
when he attempted to reach out to them concerning allegations of Own Gold’s foreign
activities. Thus, no such hearsay testimony was going to be offered. No discussion was
had concerning Mr. Skillern’s testimony, and no exclusion decisions were made during
that break. See Doc. 431-10 at 100-06. Thus, even if he should have remained in the
courtroom, Skillern has not alleged and cannot show any prejudice related to his absence
for this short period. See United States v. Odoni, 782 F.3d 1226, 1233 (11th Cir. 2015)
(analyzing a similar claim under harmless-error analysis). Thus, Skillern has failed to
show either ineffectiveness or prejudice as to these grounds.

19

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 20 of 30 PagelD 549

Ground Nine
Skillern asserts that counsel was ineffective in not calling Margaret Clifton, Michael
Clifton, and Lawrence Wunderlich to testify at trial. In support, Skillern attaches affidavits
of these three individuals. (Civ. Docs. 1-5, 1-6 and 1-7) Margaret Clifton stated that
Skillern demonstrated strong ethics and character and relied on counsel’s advice, and
that it was Nelson who committed fraud. (Civ. Doc. 1-5). Michael Clifton similarly stated
that Skillern relied on Nelson and on the advice of counsel, and Skillern was of good
character. (Civ. Doc. 1-6) Wunderlich stated that Nelson made misrepresentations and
was responsible for fraud, and that Skillern had integrity and a good character. (Civ. Doc.

1-7)
However, counsel’s decision whether to call a witness is a strategic one. See
Conklin v. Schofield, 366 F.3d 1191, 1204 (11th Cir. 2004) (“Which witnesses, if any, to
call, and when to call them, is the epitome of a strategic decision, and it is one that we
will seldom, if ever, second guess.” (quoting Waters v. Thomas, 46 F.3d 1506, 1512 (11th
Cir. 1995))). Skillern has not shown that the decision not to call the identified witnesses
was “patently unreasonable.” Dingle v. Sec’y, Dep’t of Corn, 480 F.3d 1092, 1099 (11th
Cir. 2007) (stating that counsel’s strategic decision “will be held to have been ineffective
assistance only if it was so patently unreasonable that no competent attorney would have
chosen it.”) (citation omitted); see also Chandler v. United States, 218 F.3d 1305, 131415 (11th Cir. 2000) (“[C]ounsel cannot be adjudged incompetent for performing in a
particular way in a case, as long as the approach taken might be considered sound trial
strategy. . . . [Bjecause counsel’s conduct is presumed reasonable, for a petitioner to
show that the conduct was unreasonable, a petitioner must establish that no competent

20

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 21 of 30 PagelD 550

counsel would have taken the action that his counsel did take.”) (internal quotation marks
and citation omitted).
Finally, Skillern cannot show prejudice because the testimony of these witnesses
would have been cumulative to testimonies of Edward Lewis and Skillern. It is also unclear
that a third-party witness is competent to testify as the mental decision by another to rely
on the advice of his counsel. Accordingly, having shown neither deficient performance by
counsel nor resulting prejudice as he must to prevail under Strickland, Skillern is not
entitled to relief on Ground Nine.
Ground Ten
Skillern claims that trial counsel was ineffective in failing to call an expert witness
to rebut the United States’ witness regarding assays of the Nevada mining claims. The
United States called Mark Randall Chatterton, a Bureau of Land Management employee.
Chatterton testified about mining claims and mining activities on federal public land.
Chatterton personally participated in collecting samples from the claim sites in Nevada.
Chatterton testified about the report received from an assayer and opined that none of
the levels of metals found in the samples could support an economically feasible mine.
(Cr. Doc. 431-4 at 52-53, 59-65)
Skillern claims that a defense witness could have rebutted Chatterton’s testimony
concerning the assay of the Nevada claims and shown that the assay methodology used
did not comport with Bureau of Land Management standards. However, Skillern’s claim
is too vague to show entitlement to relief. He does not identify any such witness or present
evidence showing that a prospective witness would have testified as he suggests.

21

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 22 of 30 PagelD 551

Accordingly, Skillern fails to show that his counsel performed deficiently, or that he was
prejudiced as a result. He is not entitled to relief on Ground Ten.
Ground Eleven
Skillern contends that trial counsel was ineffective in failing to adequately prepare
Edward Lewis for testimony. Skillern contends that counsel’s alleged failure to prepare
Lewis’s testimony resulted in Lewis’s not recalling during trial that he had known about
negative assay results. This is relevant in this regard because the Government argued
persuasively that reliance on Lewis’s advice was unwarranted since Lewis was not as
fully informed as Skillern. One such indicator of that was Lewis’s testimony that he was
unaware of negative assay results from Nevada. (Cr. Doc. 431-11 at 96-97) Lewis now
says that he was in fact aware of these results. (Civ. Doc. 1-4 at 12) Even accepting this
to be true, however, it would not change the outcome of the case, because Lewis
maintains, as he did throughout his trial testimony, that Nevada was of no importance to
him and he only focused on Montana. (Civ. Doc. 1-4 at 12)
Further, there were other key pieces of information that Lewis did not have, and
Skillern has not been able, post trial, to rehabilitate his testimony in these important
respects. For example, Lewis testified that he received the “Spooner Report” from Skillern
but he did not know that Skillern had modified the report. (Cr. Doc. 431-11 at 44-45, 100)
Further, Lewis was not told that the prior owner had held a mining lease since 1991, but
no gold had ever been produced at the site. (Cr. Doc. 431-11 at 105-07) Lewis agreed
that this information, if true, would have been material to his legal assessment. (Cr. Doc.
431-11 at 106) Furthermore, Lewis testified to his belief that the Montana site would “be
able to produce gold” just as soon as the company “[wa]s able to get the big dredge

22

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 23 of 30 PagelD 552

working.” (Cr. Doc. 431-11 at 32) But when confronted with information that Own Gold
lacked a permit to operate the big dredge, Lewis stated that no one relayed that
information. (Cr. Doc. 431-11 at 108)
Lewis also admitted that he was unaware of the total production numbers. Neither
Skillern nor Nelson told him that Own Gold had recovered only six gold ounces from the
Montana site—a fact that, Lewis conceded, would have been material to his legal advice.
(Cr. Doc. 431-11 at 117) Thus, even without Lewis’ testimony that he was unaware of
negative assay results which he now recants, the jury had ample grounds to conclude
that Lewis was not fully informed. Even if the jury were inclined to accept the good faith
defense as applicable, it could have rejected the defense because by his own admissions
Lewis’s advice was not fully or adequately informed. As such, Skillern could not have
relied in good faith on his advice. Skillern therefore cannot show that he was prejudiced
by his trial counsel’s performance in preparing Lewis for testimony. Skillern has not
established that trial counsel was ineffective under Strickland. He is not entitled to relief
on Ground Eleven.
Ground Twelve
Skillern argues that trial counsel was ineffective in his presentation of facts
concerning co-defendant Nelson’s operation of Own Gold. More specifically, Skillern
alleges that “from the date of the first meeting and up until the day before trial,” his lawyer
led him to believe that part of the defense “would be based on disclosing complete facts
)

regarding [Nelson’s] failures, lies, frauds, and responsibilities for [ ] Own Gold, LLC.” (Civ.
Doc. 1at 1-2) He elaborates, “My defense was that I tried, within the limits set by my
attorneys and by corporate law, to contain and control Nelson despite his obstructions for

23

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 24 of 30 PagelD 553

the good of the company and all its customers and shareholders but ultimately could not.”
(Civ. Doc. 1 -2 at 2) He goes on to allege that the day before trial, his counsel “unilaterally”
decided not to present key information about Nelson. (Civ. Doc. 1 at 2) Skillern further
states that he learned his lawyer made this decision based on “a joint defense
agreement." (Civ. Doc. 1 at 2, 17, 56-57) This asserted Ground is fully undermined by
counsel’s through affidavit and by the facts as developed at trial.
Considering the last challenge and working backward, the Court concludes that
there was never was a joint defense agreement between Skillern and Nelson’s defense
teams. Counsel attests that the joint defense agreement included only Cassim and
Camargo, not Nelson, because Schneider did not trust Nelson to go to trial rather than
plead guilty and Schneider wanted to have the option of blaming Nelson for the failure of
the company. Skillern offers no evidence to the contrary.
Second, Skillern’s lawyer strategically determined that a defense that Skillern was
an unwitting shareholder was easily assailable for two primary reasons: (1) “While Skillern
was labeled a consultant, he was paid a great deal of money on each sale of gold.’’; and
(2) “He was involved in almost every decision made by the company as evidenced by the
emails introduced at trial.” (Civ. Doc. 13-1 at 4-5,9) He strategically concluded that the
most valuable evidence for the defense at trial, the emails, were “double edged”: “While
they told the story of Nelson’s mismanagement and incompetence, [they] also told the
story of Skillern’s involvement in the decisions that the company [was] making.” (Civ. Doc.
13-1 at 14, U 22) This well-reasoned choice of defense strategy is entitled to deference.
Strategic decisions, other than those that no reasonable competent lawyer would deploy,

24

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 25 of 30 PagelD 554

are not vulnerable to attack on collateral review. See, e:g, Dingle, 480 F.3d at 1099;
Chandler v. United States, 218 F.3d at 1314-15.
Third, Skillern is impeached in his assertion that his lawyer was ill-prepared and
he, Skillern was ill-informed. As explained in Schneider’s affidavit, Schneider and Skillern
“had a standing meeting at 9:30 on Saturday morning” and spent “spent countless hours
reviewing emails, discussing witnesses and strategies.” (Doc. 13-1 at 4, U 8) The two
regularly and repeatedly discussed the evidence in the case, including the voluminous
email evidence spanning multiple years. (Doc. 13-1 at 4, U 8) Based on these meetings,
Skillern, at Schneider’s instruction, prepared a timeline that was based heavily on emails
and other communications, and Schneider then prepared an extensive exhibit list based
on those same emails and communications. Nothing about counsel’s presentation and
mastery of the record in this document-intensive case suggested that he was not
prepared and committed to this defense. The evidence against Skillern was just
overwhelming. For this reason, too the claim alleged in Ground Twelve fails. Skillern
simply cannot show prejudice as a result of his counsel’s performance. He is not entitled
to relief on Ground Twelve.
Ground Thirteen
Skillern contends that counsel was ineffective in not moving to sever his trial from
Nelson’s trial. First, he contends that Nelson would have exculpated Skillern had their
trials been separate, but that Nelson would not testify at a joint trial. Skillern further argues
that the jury may have been affected by the “spill over” effect of Nelson’s inculpatory
conduct and not “make an individual determination as to [Skillern’s] guilt.” (Civ. Doc. 1 at

25

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 26 of 30 PagelD 555

12) Skillern also claims that counsel told him that “to bring up Nelson’s malfeasance in
the trial would violate Nelson’s constitutional rights.” (Civ. Doc. 1 at 17)
This Court would not have granted such a motion. There exists a “well-settled
principle that it is preferred that persons who are charged together should also be tried
together, particularly in conspiracy cases.” United States v. Smith, 918 F.2d 1551, 1559
(11th Cir. 1990); see also United States v. Cassano, 132 F.3d 646, 651 (11th Cir. 1998)
(noting that the rule of jointly trying persons charged together “is particularly applicable to
conspiracy cases.”). Severance is appropriate only “where there is a serious risk that a
joint trial (1) would compromise a specific trial right of one of the defendants, or (2) would
prevent the jury from making a reliable judgment about guilt or innocence.” United States
v. Browne, 505 F.3d 1229, 1269 (11th Cir. 2007) (internal quotation marks and citations
omitted); see Fed. R. Crim. P. 14(a).
When considering a motion for severance, a court must weigh the prejudice
inherent in a joint trial against the interests of judicial economy. United States v. Eyster,
948 F.2d 1196, 1213 (11th Cir. 1991). “A defendant does not suffer compelling prejudice,
sufficient to mandate a severance, simply because much of the evidence at trial is
applicable only to co-defendants.” Schlei, 122 F.3d at 984; see also Hill, 643 F.3d at 829
(stating even if there had been an “enormous disparity” in the amount of evidence that
related to each defendant, that alone would not show compelling prejudice).
Moreover, Skillern cannot show prejudice, as the Court instructed the jury to
\

consider each offense and defendant separately. See United States v. Francis, 131 F.3d
1452,1459 (11th Cir. 1997) (“[Cjautionary instructions to the jury to consider the evidence
separately are presumed to guard adequately against prejudice” in a case in which

26

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 27 of 30 PagelD 556

persons charged as co-conspirators are tried together); see also United States v.
Blankenship, 382 F.3d 1110, 1123 (11th Cir. 2004) (“[T]he strong presumption is that
jurors are able to compartmentalize evidence by respecting limiting instructions specifying
the defendants against whom the evidence may be considered.”).
Skillern’s attorney did not perform deficiently in deciding not to pursue a severance
in light of the circumstances this case presented. Counsel is not ineffective in deciding to
forgo a motion likely to fail. Accordingly, he is not entitled to relief on Ground Thirteen.
Ground Fourteen
Finally, Skillern argues that his appellate counsel was ineffective in failing to raise
alleged sentencing errors on direct appeal. Specifically, he contends that the Court erred
in determining that he was a leader and organizer; and second, that the Court erred in
determining that Skillern had not accepted responsibility. Skillern provides no argument
or support for why these enhancements were not correctly applied to him. Thus, he has
waived these insufficiently developed claims. See In re Moore, 830 F.3d at 1272.
Even if the Court were inclined to consider them they would, nonetheless be
denied. Skillern qualified for the leader/organizer enhancement. To qualify, “the defendant
must have been the organizer, leader, manager, or supervisor of one or more other
participants.” USSG §3B1.1, comment, (n.2). See United States v. Holland, 22 F.3d 1040,
1045 (11th Cir. 1994). The evidence demonstrated that Skillern orchestrated an extensive
fraud scheme that involved multiple coconspirators, as well as multiple sales people, who
may or may not have been aware of the fraud. He directed others to fraudulently sell gold
over a period of two-and-a-half years, totaling $7.36 million in sales. Thus, he cannot
show prejudice from his lawyer’s failure to raise this objection.

27

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 28 of 30 PagelD 557

Skillern also did not qualify for acceptance of responsibility. (Cr. Doc. 320 at 25,
U 126) Pursuant to USSG § 3E1.1(a), a defendant is entitled to a two-level reduction in
his offense level if he “clearly demonstrates acceptance of responsibility for his offense.”
The adjustment is “not intended to apply to a defendant who puts the government to its
burden of proof at trial by denying the essential factual elements of guilt” except where “a
defendant goes to trial to assert and preserve issues that do not relate to factual guilt.”
USSG § 3E1.1 App. Note 2. As is his right, Skillern persists in his innocence even today.
But, he cannot not simultaneously qualify as one who clearly demonstrates acceptance
of responsibility for his offense. Thus, Skillern has suffered no prejudice related to the
calculation of his guidelines range.
Nor can Skillern show that his appellate counsel was ineffective in not raising The
standard set out in Strickland applies to claims of ineffective assistance of appellate
counsel. Smith v. Robbins, 528 U.S. 259, 285 (2000); Heath v. Jones, 941 F.2d 1126,
1130 (11th Cir. 1991). To establish a claim, Skillern must show that appellate counsel’s
performance was objectively unreasonable, and that there is a reasonable probability
that, but for this performance, he would have prevailed on his appeal. Robbins, 528 U.S.
at 285-86. Skillern cannot meet this burden because, as addressed above, he fails to
show a reasonable probability that this claim would have succeeded on appeal. Skillern’s
challenge on this final Ground Fourteen fails.
Need for an Evidentiary Hearing
Skillern is not entitled to an evidentiary hearing. Skillern has the burden of
establishing the need for an evidentiary hearing, see Birt v. Montgomery, 725 F.2d 587,
591 (11th Cir. 1984) (en banc), and he would be entitled to a hearing only if his allegations,

28

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 29 of 30 PagelD 558

if proved, would establish a right to collateral relief. Where, as here, the record plainly
establishes that a section 2255 claim lacks merit or that it is defaulted, no such hearing
is warranted. United States v. Lagrone, 727 F.2d 1037, 1038 (11th Cir. 1984); McCleskey
v. Zant, 499 U.S. 467, 494 (1991).
CONCLUSION
Accordingly, it is ORDERED that Skillern’s motion to vacate (Doc. 1) is DENIED.
Skillern’s motion for summary judgment, motion for judgment on the pleading, and
expedited motion for review and ruling (Civ. Docs. 16, 17, 19), which reiterate the merits
of his claims, are DENIED AS MOOT. The CLERK is directed to enter judgment against
Skillern, to terminate all pending motions in the civil action, to CLOSE the civil action, and
to enter a copy of this Order in the criminal action.
DENIAL OF BOTH A
CERTIFICATE OF APPEALABILITY
AND LEAVE TO APPEAL IN FORMA PAUPERIS
Skillern is not entitled to a certificate of appealability (“COA”). A prisoner seeking
a writ of habeas corpus has no absolute entitlement to appeal a district court’s denial of
his petition. 28 U.S.C. § 2253(c)(1). Rather, a court must first issue a COA. Section
2253(c)(2) permits issuing a COA “only if the applicant has made a substantial showing
of the denial of a constitutional right.” To merit a certificate of appealability, Skillern must
show that reasonable jurists would find debatable both (1) the merits of the underlying
claims and (2) the procedural issues he seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack
v. McDaniel, 529 U.S. 473, 478 (2000): Eagle v. Linahan, 279 F.3d 926, 935 (11th Gir.
2001). Because he fails to make the requisite showing, Skillern is not entitled to a COA.

29

Case 8:19-cv-00896-MSS-AEP Document 21 Filed 08/25/20 Page 30 of 30 PagelD 559

Accordingly, a certificate of appealability is DENIED. Leave to appeal in forma
pauperis is DENIED. Skillern must obtain permission from the circuit court to appeal in
forma pauperis.
DONE AND ORDERED in Tampa, Florida, on this 25th day of August, 2020.

(c

f mZ
MARYV&JSORIVEN"
UNITED SPATES DISTRICT JUDGE '

30

USCA11 Case: 20-13380

Date Filed: 05/19/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-13380-H

MICHAEL SKILLERN.
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

Appeal from the United States District Court
for the Middle District of Florida

Before: GRANT and LAGOA, Circuit Judges.
BY THE COURT:
Michael Skillem has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of this Court’s April 16,2021, order denying a certificate of appealability on appeal from
the district court’s denial of his 28 U.S.C. § 2255 motion to vacate his conviction and sentence.
Upon review, Skillem’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

• 1

1

•1

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

2
3

UNITED STATES OF AMERICA,

•-

4
5
6
7
8

Case No. 8:14-CR-58-T-35TBM

Plaintiff,
VS.

Tampa, Florida

NAADIR CASSIM, JON CRAIG
•
NELSON, MICHAEL SKILLERN,.ADRIANA MARIA CAMARGO,

January 26, 2016

9:.'tf0. a.m.

f

Defendants.

9
10

VOLUME 10. .
TRANSCRIPT OF JURY TRIAL PROCEEDINGS
BEFORE THE -HONORABLE MARY S.. SCRIVEN
-UNITED STATES DISTRICT JUDGE

11
12

f •

f

13

Appearances:

14

For the Government:

MS. SARA SWEENEY
MS. RACHELLE DESVAUX BEDKE
Assistant United States Attorney
400 North Tampa St., Ste 3200
Tampa, FL
33602
(813)274-6000
sara.sweeney@usdoj.gov
rachelle.bedke@usdoj.gov

For Defendant Cassim:

KENTON V. SANDS, ESQUIRE
Sands, White & Sands, PA
760 White St
Daytona Beach, FL 32114
(386)258-1622
kent@sandswhitesands.com

S'

A -

15
16
17
18
1«
4

20
21
22
23
24
25

(

Appendix c

CLAUDIA SPANGLER-FRY

OFFICIAL U. S. COURT REPORTER

i

*

208

1

MR. SANDS:

I answered my own question.

2

THE COURT:

Any different perspective from the

3

Government?

4

MS. SWEENEY:

Well, I do know, for instance,

5

Mr. Sands has told us about a number of documents that he would

6

like to show, I guess, the witness, and potentially then

7

introduce from among his exhibits,

8

typically think if that remains his intention, at the

9

conclusion of the testimony, I would prefer to cross after he

So for that reason, I would

10

does so that those documents could be part of the cross as

11

well.

12

THE COURT:

Well, the procedure will be that Mr.

13

Schneider will continue with his examination of this witness

14

and the Government will cross the witness in the normal course.

15

If anybody else wishes to cross the witness, they'll be allowed

16

to do so.

17

redirect, he'll be able to do that, and if the Government can

18

persuasively contend that any inquiry of the — any Defense

19

Lawyer was other than cross, i.e., some sort of direct, then

20

the Court will consider allowing recross.

And if the — Mr. Schneider then, I guess, wants

21

MS. SWEENEY:

22

MR. SCHNEIDER:

23

Thank you, Your Honor.
And, Your Honor, may I speak to Mr.

Skillern about matters other than his testimony this evening —

24

THE COURT:

25

MR. SCHNEIDER:

Yes.
— that may come up?

CLAUDIA SPANGLER-FRY

OFFICIAL U. S. COURT REPORTER

209

1

THE COURT:

You can talk about the weather.

2

you mean, other than may come up?

3

impending testimony.

4

MR. SCHNEIDER:

What do

Not his testimony or his

Right, Your Honor, but maybe witness

5

problems or things like that?

6

THE COURT:

Yes, anything about the proceeding and so

7

forth, who's coming, who is not coming, that's fine, but just

8

not his testimony or his impending testimony.

9
10
11

MR. SCHNEIDER:
THE COURT:

Fine, Your Honor.

Anything else the Court can assist the

parties with?

12

MS. SWEENEY:

13

MR. HALL:

No, Your Honor, thank you.

Judge, we, on behalf of Mr. Nelson, you

14

heard us talk about, at length, regarding breach of contract,

15

that's our theory of the case, and we would like to submit to

16

the parties for review and ultimately to the Court, a special

17

instruction for our theory of the case, breach of contract as

18

one of the jury instructions.

19

I'll show it to the parties and ultimately for your review.

20

THE COURT:

I'd like to craft something.

Well, that needs to be done rather

21

quickly because the Court is preparing the instructions in the

22

background while the case is proceeding.

23

MR. HALL:

24

THE COURT:

25

slipped again.

Yes, ma'am.

Thank you.

Something just came to my mind and

Hold on one second.

CLAUDIA SPANGLER-FRY

OFFICIAL U. S. COURT REPORTER

